No. _____
IN THE

Supreme Court of the United States
___________

CONTINENTAL RESOURCES, INC.,
v.

Petitioner,

ZACHARY BUCKLES EX REL. NICOLE R. BUCKLES AND
NICOLE R. BUCKLES,
___________

Respondents.

On Petition for a Writ of Certiorari to the
Supreme Court of Montana
___________
PETITION APPENDIX
___________
W. SCOTT MITCHELL
KYLE A. GRAY
HOLLAND & HART LLP
401 N. 31st St.,
Suite 1500
P.O. Box 639
Billings, MT 59103

ANDREW M. GROSSMAN
Counsel of Record
DAVID B. RIVKIN, JR.
RICHARD B. RAILE
BAKER & HOSTETLER LLP
1050 Connecticut Ave., N.W.
Washington, D.C. 20036
(202) 861-1697
agrossman@bakerlaw.com

App. i
TABLE OF APPENDICES
Appendix A: Buckles v. Continental
Resources, Inc., Montana Supreme
Court’s Opinion (April 28, 2020) ................. App. 1
Appendix B: Buckles v. Continental
Resources, Inc., et al., Montana Seventh
Judicial District Court’s Opinion
(January 14, 2019) ..................................... App. 42
Appendix C: Buckles v. Continental
Resources, Inc., Montana Supreme
Court’s Opinion (Sept. 21, 2017) ............... App. 59
Appendix D: Buckles v. Continental
Resources, Inc., et al., Montana Seventh
Judicial District Court’s Order
(Aug. 22, 2016) ........................................... App. 85
Appendix E: Complaint ............................. App. 87

App. 1

APPENDIX A
In the Supreme Court of the State of Montana
DA 19-0162, 2020 MT 107
____________
Zachary Scott BUCKLES, deceased, by and through
his personal representative, Nicole R. Buckles, and
Nicole R. Buckles, personal representative, on behalf
of the heirs of Zachary Scott Buckles,
Plaintiffs and Appellants,
v.
CONTINENTAL RESOURCES, INC., an Oklahoma
corporation, BH Flowtest, Inc., a Montana Corporation, Black Rock Testing, Inc., a Montana Corporation, Janson Palmer, d/b/a Black Gold Testing, and
John Does I-V,
Defendants and Appellees.
____________
Submitted on Briefs: November 13, 2019
Decided: April 28, 2020
APPEAL FROM: District Court of the Seventh Judicial District, In and For the County of Richland,
Cause No. DV 2015-014, Honorable Olivia C. Rieger,
Presiding Judge

App. 2
COUNSEL OF RECORD:
For Appellant:
Clifford Edwards, Roger W. Frickle, Edwards,
Frickle & Culver, Billings, Montana
Robert J. Savage, Savage Law Firm, Sidney,
Montana
For Appellee BH Flowtest, Inc.:
Leonard H. Smith, Christopher C. Stoneback,
David F. Knobel, Monique P. Voigt, Crowley
Fleck PLLP, Billings, Montana
For Appellee Black Rock Testing, Inc.:
Kelly J.C. Gallinger, Aaron M. Dunn, Brown Law
Firm, P.C., Billings, Montana
For Appellee Continental Resources, Inc.:
W. Scott Mitchell, Kyle A. Gray, Holland & Hart
LLP, Billings, Montana
____________
Justice Beth Baker delivered the Opinion of the
Court.
¶1 Nicole R. Buckles (‘‘Buckles’’), as personal representative of the estate of Zachary Scott Buckles, appeals the order of the Seventh Judicial District Court
granting Defendant Continental Resources, Inc.’s
(‘‘Continental’’) motion to dismiss for lack of specific
personal jurisdiction. Because Buckles raised sufficient facts to withstand a motion to dismiss, we reverse and remand for further development of the record.

App. 3
FACTUAL AND PROCEDURAL BACKGROUND
¶2 This case returns to the Court for the second time
on appeal. See Buckles v. Cont’l Res. Inc., 2017 MT
235, 388 Mont. 517, 402 P.3d 1213 (‘‘Buckles I’’). We
restate the facts applicable to the issue presented.
¶3 Zachary Scott Buckles was born and raised in
Glasgow, Montana. This action arises from his tragic
death on April 28, 2014, at a North Dakota oil well
site owned by Defendant Continental.
¶4 Continental is an Oklahoma corporation authorized to do business in Montana since 1990. Continental has significant operations in Montana, the extent
of which is detailed in our Opinion in Buckles I. Relevant here, Continental maintains a field office in Sidney, Montana, which is responsible for overseeing the
operation of the oil and gas well site and tank battery
in the Bakken region of North Dakota where Zachary
died. The District Court referred to this site as the Columbus Federal/Tallahassee complex, and we do so
here. The Columbus Federal/Tallahassee complex
consists of twenty tanks that support five oil wells
that produce crude oil and natural gas.
¶5 In June 2011, Continental entered into a Master
Services Agreement (‘‘MSA’’) with BH Flowtest, Inc.,1
a Montana corporation, to perform certain services at
the Columbus Federal/Tallahassee complex. The
MSA provided: ‘‘It is expressly understood that Contractor [BH Flowtest] is an independent contractor

BH Flowtest is identified in the MSA as a limited liability company but referred to in briefing as BH Flowtest, Inc. and BH
Flow Testing, Inc.
1

App. 4
and that neither Contractor nor Contractor’s principals, partners, employees, or subcontractors are servants, agents, or employees of Continental.’’ The agreement further provided: ‘‘Contractor warrants that it
is an expert in the work it will perform, that its employees and agents have been trained to follow all applicable laws, rules, and regulations and work safely,
and that all of its equipment has been thoroughly
tested and inspected and is safe, sufficient and free of
any defects[.]’’ The MSA was signed by BH Flowtest’s
owner and a Continental representative. Continental
avers—and Buckles does not dispute—that Continental signed the MSA from its offices in Enid, Oklahoma.
¶6 Pursuant to the MSA, BH Flowtest agreed to perform oil gauging, or ‘‘flow-testing’’ services. Flow-testing consists of monitoring the flow rate of oil from a
newly producing well into a holding tank. The gauger
takes hourly manual readings of the level of crude oil
in those tanks at an oil tank battery; checks for leaks;
adjusts pumping system controls to hit the desired
flow rates; makes sure the oil leaves, by truck or by
pipeline; and ensures that ‘‘everything ran smooth
[sic].’’ BH Flowtest subcontracted the flow-testing to
Black Rock Testing, Inc., which in turn subcontracted
the flow-testing to Janson Palmer, doing business as
Black Gold Testing. Palmer in turn subcontracted
with his childhood friend Zachary Buckles, doing
business as Dozer Testing, Inc. There is no dispute
that the work Zachary performed was among the services encompassed by the MSA.
¶7 In January 2014, Zachary and Palmer traveled to
the Bakken to perform manual tank-gauging of crude

App. 5
oil production tanks. They worked at various well
sites in North Dakota before arriving at Continental’s
Columbus Federal/Tallahassee complex in midMarch. Zachary and Palmer lived together in a trailer
near the well site and alternated twelve-hour shifts,
with Palmer gauging during the day and Zachary
gauging at night. They sent daily ‘‘flow charts’’ documenting hourly production at the wells to Continental’s Sidney office. On April 28, 2014, Zachary died at
the Columbus Federal/Tallahassee complex 2-16H
well site, allegedly from exposure to high levels of hydrocarbon vapors while manually gauging tanks. He
was nineteen years old.
¶8 Buckles filed suit against Continental, BH Flowtest, Black Rock, and Black Gold in Montana’s Seventh Judicial District Court, Richland County, alleging that Defendants are liable for Zachary’s death.
Specifically, Buckles asserted that Defendants had a
legal duty under state and federal law to maintain a
safe and secure oil well site and that they breached
their duty by allowing an inherently dangerous and
unsafe well site to be operated without adequate or
appropriate air monitoring equipment in place for the
tank gauging activities. Continental filed a motion to
dismiss for lack of personal jurisdiction. After full
briefing by the parties, the District Court concluded
that it lacked both general and specific personal jurisdiction and granted Continental’s motion to dismiss.
Buckles appealed. We agreed with the District Court
that Continental was not ‘‘at home’’ in Montana and
therefore was not subject to general personal jurisdiction, Buckles I, ¶ 14, but reversed and remanded to
the District Court ‘‘to conduct an evidentiary hearing
for the purpose of determining whether Continental

App. 6
is subject to specific personal jurisdiction in Montana.’’ Buckles I, ¶ 29.
¶9 On remand, the District Court allowed additional
jurisdictional discovery and held a jurisdictional hearing, at which the parties presented deposition testimony from numerous witnesses, including former and
current Continental employees and Janson Palmer.
On January 14, 2019, the court entered its Findings
of Fact, Conclusions of Law and Order on Continental
Resources, Inc.’s Motion to Dismiss – Specific Personal Jurisdiction, granting Continental’s motion to
dismiss. The court determined that Continental is not
subject to specific personal jurisdiction because the
events leading to Zachary’s death do not satisfy Montana’s long-arm statute, M. R. Civ. P. 4(b)(1), and because exercising jurisdiction over Continental would
violate the Due Process Clause of the United States
Constitution.2
STANDARDS OF REVIEW
¶10 This Court reviews de novo a district court’s decision on a motion to dismiss for lack of personal jurisPending before the Court is another appeal, by Continental’s
co-defendants BH Flowtest and Black Rock Testing, of the District Court’s separate order ruling that Montana law, rather
than North Dakota law, applies to Buckles’s claims in this case.
Buckles v. Continental Resources, Inc., et al., S. Ct. No. DA 190546. We consider the appeals separately, on the discrete issues
the parties raise in each case. For purposes of this appeal, we
assume Montana law applies. The issue here is not each state’s
doctrinal law or sovereign interests, Dissent, ¶¶ 49, 53-55, but
whether Continental’s case-linked activities related to its alleged Montana-based control over work performed on its oil wells
require it to defend Buckles’s claims in a Montana court.
2

App. 7
diction. Buckles I, ¶ 9 (quotations and citations omitted). If the district court conducts a preliminary hearing and makes factual findings necessary to the determination of personal jurisdiction, we review those
findings of fact for clear error. Tackett v. Duncan,
2014 MT 253, ¶ 16, 376 Mont. 348, 334 P.3d 920 (citation omitted). We review a district court’s conclusions
of law to determine whether the conclusions are correct. Buckles I, ¶ 9 (citation omitted).
DISCUSSION
¶11 ‘‘Personal jurisdiction—a court’s power over the
parties in a proceeding—may be general (all-purpose)
or specific (case-linked).’’ Ford Motor Co. v. Mont.
Eighth Judicial Dist. Court, 2019 MT 115, ¶ 8, 395
Mont. 478, 443 P.3d 407, cert. granted, No. 19-368
(U.S. Jan. 17, 2020). ‘‘Specific personal jurisdiction exists when the suit itself ‘arises from the specific circumstances set forth in Montana’s long-arm statute,
M. R. Civ. P. 4(b)(1).’’’ Ford Motor Co., ¶ 9 (citing
Buckles I, ¶ 15). A state court’s ability to exercise specific personal jurisdiction depends on the ‘‘relationship among the defendant, the forum, and the litigation.’’ Ford Motor Co., ¶ 9 (quoting Daimler AG v.
Bauman, 571 U.S. 117, 133, 134 S. Ct. 746, 758
(2014)). This relationship must arise out of contacts
that the defendant itself created with the forum. Ford
Motor Co., ¶ 9; Tackett, ¶ 32. Stated another way, in
order for a state court to exercise specific jurisdiction,
both the defendant and the underlying controversy
must be ‘‘appropriately affiliated’’ with Montana.
Ford Motor Co., ¶ 9. A defendant’s general connections with the forum state are not enough. Rather,
‘‘the suit must arise out of or relate to the defendant’s

App. 8
contacts with the forum.’’ Buckles I, ¶ 17 (quoting
Bristol-Myers Squibb Co. v. Superior Court, ––– U.S.
––––, 137 S. Ct. 1773, 1786 (2017) (internal quotations omitted)). ‘‘‘Specific’ or ‘case-linked’ jurisdiction
depends on an affiliation between the forum and the
underlying controversy, principally an activity or occurrence that takes place in the forum state and is
therefore subject to the state’s regulation.’’ Tackett,
¶ 19 (quoting Walden v. Fiore, 571 U.S. 277, 283 n.6,
134 S. Ct. 1115, 1121 n.6 (2014)). Finally, a defendant’s relationship with a third party, standing alone,
is an insufficient ground for specific jurisdiction.
Buckles I, ¶ 20 (citation omitted); Bristol-Myers
Squibb Co., 137 S. Ct. at 1781 (citation omitted). In
sum, ‘‘specific jurisdiction is confined to adjudication
of issues deriving from, or connected with, the very
controversy that establishes jurisdiction.’’ Bristol-Myers Squibb Co., 137 S. Ct. at 1780.
¶12 To determine whether Montana courts may exercise specific personal jurisdiction over a nonresident
defendant, we first determine whether personal jurisdiction exists under our long-arm statute, codified at
M. R. Civ. P. 4(b)(1). Ford Motor Co., ¶ 10; Buckles I,
¶ 11. If not, we must decline jurisdiction, and our
analysis ends. Simmons v. State, 206 Mont. 264, 272,
670 P.2d 1372, 1376 (1983). If, however, the defendant
has done some act that potentially confers jurisdiction
under the long-arm statute, we examine whether the
exercise of jurisdiction comports with traditional notions of fair play and substantial justice embodied in
the Due Process Clause of the Fourteenth Amendment. Simmons, 206 Mont. at 272, 670 P.2d at 1376.

App. 9
¶13 Montana’s long-arm statute provides in pertinent
part:
[A]ny person is subject to the jurisdiction of
Montana courts as to any claim for relief arising
from the doing personally, or through an employee or agent, of any of the following acts:
(A) the transaction of any business
within Montana;
(B) the commission of any act resulting in
accrual within Montana of a tort action;
(C) the ownership, use, or possession of
any property, or of any interest, therein
situated within Montana[.]
M. R. Civ. P. 4(b)(1). Buckles asserts that ‘‘Continental’s conduct[] unequivocally falls directly within the
parameters of subsection (A), (B), and (C)’’ of the longarm statute. Concluding that subsection (A) applies to
the claims Buckles raises, we do not consider either
(B) or (C).
¶14 Under M. R. Civ. P. 4(b)(1)(A), a Montana court
may ‘‘exert longarm jurisdiction over any person if the
claim arises out of that person’s transaction of business within the state.’’ Grizzly Sec. Armored Express,
Inc. v. Armored Group, LLC, 2011 MT 128, ¶ 23, 360
Mont. 517, 255 P.3d 143. ‘‘Jurisdiction comports with
M. R. Civ. P. 4(b)(1)(A) if the nonresident business
conducts ‘substantial’ business activity in the state’’
from which the claim arises. Grizzly Sec., ¶ 23 (quoting Bunch v. Lancair Int’l, Inc., 2009 MT 29, ¶ 18, 349
Mont. 144, 202 P.3d 784). As we stated in Buckles I,
¶ 20, ‘‘The dispositive question, as it pertains to specific personal jurisdiction over Continental, is

App. 10
whether a relationship exists ‘among [] [Continental],
the forum, and the litigation,’ …not just with Continental’s contacts with Montana in general.’’ (Citations
omitted.)
¶15 It is undisputed that Continental conducts substantial business activities in Montana. Continental
maintains, however, that its only suit-related Montana business transaction is the MSA with BH Flowtest. It argues that our decision in Cimmaron Corp. v.
Smith, 2003 MT 73, 315 Mont. 1, 67 P.3d 258, precludes us from exercising specific jurisdiction over
Continental on the basis of the MSA.
¶16 In Cimmaron, ¶ 14, we reiterated our holding in
Edsall Construction Co., Inc. v. Robinson that ‘‘a nonresident does not subject [itself] to the jurisdiction of
Montana by merely entering into a contract with a
resident of Montana.’’ 246 Mont. 378, 382, 804 P.2d
1039, 1042 (1991). We affirmed the district court’s ruling that it lacked personal jurisdiction over Pennsylvania defendants whose sole contacts with Montana
were the agreements they entered with the Montanabased plaintiff. Cimmaron, ¶¶ 15, 21. We further observed that under the agreement in that case, the defendants were required to perform services in Pennsylvania, not in Montana, and that each of the plaintiff’s claims pertained to actions the defendants took,
or failed to take, in Pennsylvania. Cimmaron, ¶ 15.
¶17 Like the contract at issue in Cimmaron, the MSA
is a contract Continental entered with a Montana resident for the performance of services outside Montana. And like the nonresident defendants in Cimmaron, Continental did not subject itself to this
State’s jurisdiction simply by entering into the MSA

App. 11
with a Montana entity for tank gauging to be performed in North Dakota. Continental did not have a
contract with Zachary; the parties to the MSA are two
codefendants, Continental and BH Flowtest. A defendant’s relationship with a third party (BH Flowtest), standing alone, is an insufficient basis for jurisdiction. Bristol-Myers Squibb Co., 137 S. Ct. at 1781
(quoting Walden, 571 U.S. at 286, 134 S. Ct. at 1123);
Buckles I, ¶ 20; Tackett, ¶ 33.
¶18 The MSA’s connection to Zachary is through three
additional subcontracts, leading to the work he performed in North Dakota. But the MSA—which made
BH Flowtest and its subcontractors responsible for all
tank-gauging services and related safety measures—
does not contractually connect Zachary’s death, Continental, and Montana. We agree with Continental
that its MSA with BH Flowtest is not sufficient by itself to confer long-arm jurisdiction over Continental
in this case pursuant to M. R. Civ. P. 4(b)(1)(A).
¶19 Buckles argues nonetheless that, because Continental’s Sidney, Montana office oversees the Columbus Federal/Tallahassee complex where Zachary died,
there is a relationship between Montana, Continental, and this litigation sufficient to subject Continental to the exercise of specific jurisdiction.
¶20 The District Court found that Continental’s Sidney, Montana office exercises ‘‘supervisory control’’
over the Columbus Federal/Tallahassee complex: it
manages production and daily operations at the well
site; it has the authority to set flow rates; and it directs the work that subcontractors are to perform at
the well site. The court also found that Continental
contracts out certain elements of work for which its

App. 12
subcontractors are responsible. For example, each individual tank-gauger—all of whom are independent
subcontractors—sets the flow rate in practice; subcontractors must procure their own safety equipment;
contractors are not included in the Sidney, Montana
monthly safety trainings held for employees; Continental does not train independent contractors; and
Continental expects that subcontractors acquire onthe-job training necessary to perform their work.
¶21 As the owner and operator of the Columbus Federal/Tallahassee complex, Continental generally is
not liable for any torts committed by its independent
contractors. Beckman v. Butte-Silver Bow County,
2000 MT 112, ¶ 12, 299 Mont. 389, 1 P.3d 348. ‘‘Exceptions to this rule, which create vicarious liability
for the employer, arise when (1) there is a non-delegable duty based on contract; (2) the activity is inherently or intrinsically dangerous; or (3) the general
contractor negligently exercises control reserved over
a subcontractor’s work.’’ Stricker v. Blaine Cty., 2019
MT 280, ¶ 12, 398 Mont. 43, 453 P.3d 897 (citing Beckman, ¶ 12). We held in Beckman that trenching activities on a worksite are inherently dangerous because
workers are exposed to the risk of being buried if the
operations are not safely conducted, which ‘‘requires
the implementation of special precautions.’’ Beckman,
¶¶ 23-24. Though such precautions may be well-recognized in the construction industry, they demand
‘‘special knowledge and, when not followed or properly
applied, may result in instantaneous death to the
workers.’’ Beckman, ¶¶ 24-25.
¶22 Continental did not dispute that safety concerns
are paramount in the oil and gas industry and that it

App. 13
took substantial precautions to deal with safety risks,
including those presented by hydrocarbon vapors.
Russell Atkins, Continental’s production manager for
the Bakken area, testified that Continental ensured
that contractors complied with basic safety requirements. Atkins said that Continental would assure
that both employees and contractors had the required
Personal Protective Equipment. Although the contractors were not included in the monthly safety meetings, ‘‘they had to follow certain guidelines that we
made sure they did.’’ Testimony showed that Continental retained ultimate authority over the well site
and that it could shut down the operation immediately if one of its employees observed something unsafe. Dusty Grosulak, Continental’s Northern region
health and safety coordinator, testified that he had, at
times, conducted spot inspections or examinations
and looked at the safety practices of subcontractors on
Continental’s properties. He acknowledged that he
had authority to shut an operation down if he saw unsafe practices being conducted by a contractor. Atkins
also agreed that if a contractor was not following Continental’s guidelines, he had the ability ‘‘to fire them
on the spot[.]’’
¶23 Other Continental representatives confirmed
that, though they did not supervise the company’s
subcontractors, if they were visiting a well site and
observed a contractor who was not following safety
guidelines, they would give direction. Clint Dunn,
who worked as a lease operator for Continental at the
time of Zachary’s death, testified that he checked the
equipment at the subject well site daily as part of his
regular North Dakota route. Dunn would check for
leaks and any other safety hazards and would make

App. 14
sure the equipment was functioning properly. Though
Dunn never saw Zachary (who worked at night), he
did see Janson Palmer—long enough to say hello, ask
if there were any problems, and ‘‘get numbers’’ from
him. Dunn confirmed that it was company policy that
everyone working on a well site would carry a gas
monitor. He testified that if he saw a contractor doing
something unsafe while he was visiting a site, he
would stop the unsafe activity and contact his foreman for further action.
¶24 We noted in Buckles I, ¶ 28, that M. R. Civ. P.
12(i) allows a court to defer until trial ruling on a motion to dismiss for lack of personal jurisdiction (citing
Data Disc, Inc. v. Systems Tech. Assoc., Inc., 557 F.2d
1280, 1285 n.2 (9th Cir. 1977)).3 On the basis of the
jurisdictional record, we conclude that the jurisdictional facts are so intertwined with the merits that a

We disagree with the Dissent’s view of Data Disc, Inc. Dissent,
¶¶ 56-57. The Ninth Circuit in that case opined that where the
jurisdictional facts are intertwined with the merits, ‘‘it is preferable that [a decision on the jurisdictional issues] be made at trial,
where a plaintiff may present his case in a coherent, orderly
fashion and without the risk of prejudicing his case on the merits.’’ Data Disc, Inc., 557 F.2d at 1285, n.2 (emphasis added). In
any event, as mentioned, our own rules of procedure contemplate
deferring such a ruling until trial. M. R. Civ. P. 12(i). ‘‘Of course,
at any time when the plaintiff avoids a preliminary motion to
dismiss by making a prima facie showing of jurisdictional facts,
he must still prove the jurisdictional facts at trial by a preponderance of the evidence.’’ Data Disc, Inc., 557 F.2d at 1285, n.2.
Our Opinion today holds only that Buckles’s jurisdictional evidence met the prima facie showing.
3

App. 15
decision on the jurisdictional issues depends on a decision of the merits.4 Whether Continental is subject
to jurisdiction in Montana depends on whether Buckles is able to prove, under one or more of the Beckman
exceptions, that it may be held liable for the torts, if
any, of its independent contractors. If one of those exceptions applies, the duty to Zachary arises from Continental’s oversight of the North Dakota well that it
managed from its Sidney office in Montana and thus
supplies the necessary ‘‘affiliation between the forum
and the underlying controversy.’’ Tackett, ¶ 19.
¶25 We therefore conclude that the evidence was sufficient at this juncture to withstand Continental’s motion to dismiss for lack of a suit-specific connection between its Montana business transactions and Buckles’s claims in this case. Whether Continental may be
held accountable for the alleged failures of its independent contractor(s) is ‘‘the very controversy’’ that
also would establish jurisdiction. Bristol-Myers
Squibb Co., 137 S. Ct. at 1780. If Buckles in fact is
able to demonstrate one or more of the Beckman exceptions, Continental may be subject to personal jurisdiction in Montana under Rule 4(b)(1)(A) based on
its liability for tortious conduct, if any, by its independent contractor or contractors.
¶26 Because personal jurisdiction potentially is conferred by Montana’s longarm statute, we consider
The District Court denied Buckles’s request to wait until trial
to determine its jurisdiction. It held that the jurisdictional facts
were ‘‘‘not so enmeshed with the merits’ of the case that the issue
of Continental’s personal jurisdiction in Montana should not be
determined prior to trial.’’ On de novo review of the jurisdictional
issue, we disagree.
4

App. 16
whether the exercise of jurisdiction comports with traditional notions of fair play and substantial justice
embodied in the Due Process Clause of the Fourteenth
Amendment. Ford Motor Co., ¶ 10. The primary focus
of the due process inquiry ‘‘is the defendant’s relationship to the forum State.’’ Ford Motor Co., ¶ 12 (quoting Bristol-Myers Squibb Co., 137 S. Ct. at 1779). We
consider whether: ‘‘(1) the nonresident defendant purposefully availed itself of the privilege of conducting
activities in Montana, thereby invoking Montana’s
laws; (2) the plaintiff’s claim arises out of or relates to
the defendant’s forum-related activities; and (3) the
exercise of personal jurisdiction is reasonable.’’ Ford
Motor Co., ¶ 12 (citing Simmons, 206 Mont. at 276,
670 P.2d at 1378). If the plaintiff demonstrates that
the defendant purposefully availed itself of the privilege of conducting activities in Montana, ‘‘a presumption of reasonableness arises, which the defendant
can overcome only by presenting a compelling case
that jurisdiction would be unreasonable.’’ Ford Motor
Co., ¶ 12 (citing B.T. Metal Works v. United Die &
Mfg. Co., 2004 MT 286, ¶ 34, 323 Mont. 308, 100 P.3d
127).
¶27 ‘‘A nonresident defendant purposefully avails itself of the benefits and protections of the laws of the
forum state when it takes voluntary action designed
to have an effect in the forum.’’ B.T. Metal Works,
¶ 35. ‘‘The defendant that invokes the laws of the forum state by purposefully availing itself of the privilege of conducting activities within the forum should
reasonably anticipate being haled into court in the forum state, and the exercise of jurisdiction over such a
defendant is fundamentally fair.’’ B.T. Metal Works,
¶ 35. As discussed above and set forth in more detail

App. 17
in Buckles I, Continental’s extensive business activities in Montana demonstrate that it purposefully
availed itself of the privilege of conducting activities
within this state. We conclude that, should Buckles
prove the suit-specific connection through application
of Beckman, requiring Continental to defend in Montana would not offend traditional notions of fair play
and substantial justice as embodied in the due process
clause. Once a plaintiff demonstrates that a defendant has purposefully availed itself of such privilege,
the presumption of reasonableness arises. In that
case, ‘‘we need not address the remaining elements in
determining whether the exercise of jurisdiction comports with due process.’’ B.T. Metal Works, ¶ 37 (citing
Simmons Oil Corp. v. Holly Corp., 244 Mont. 75, 85,
796 P.2d 189, 195 (1990)). On this record, Continental
has not presented ‘‘a compelling case’’ that jurisdiction would be unreasonable should Buckles prove her
claims. Ford Motor Co., ¶ 12.
CONCLUSION
¶28 The District Court’s order granting Continental’s
motion to dismiss is reversed, and the case is remanded for further proceedings.
/s/ BETH BAKER
We Concur:
/s/ MIKE McGRATH, C.J.
/s/ JAMES JEREMIAH SHEA, J.
/s/ JIM RICE, J.
/s/ DIRK M. SANDEFUR, J.
/s/ INGRID GUSTAFSON, J.

App. 18
Justice Dirk Sandefur, concurring.
¶29 Without assignment of error, the Court essentially holds that issues of fact preclude dismissal of
Buckles’s complaint at this juncture under the liberal
standard of M. R. Civ. P. 12(b)(2), as applied to Rule
4(b)(1)(A). I concur in that ultimate holding but, for
the following reasons, would more affirmatively hold
that Buckles has shown sufficient facts for exercise of
Montana longarm jurisdiction under M. R. Civ. P.
4(b)(1)(A) and that the District Court erroneously concluded to the contrary.
¶30 Exercise of specific long-arm personal jurisdiction
over a nonresident is a combined function of state law
under M. R. Civ. P. 4(b)(1) and Fourteenth Amendment due process under the United States Constitution. B.T. Metal Works. v. United Die & Mfg. Co., 2004
MT 286, ¶ 16, 323 Mont. 308, 100 P.3d 127; Simmons,
206 Mont. at 271-73, 670 P.2d at 1376-77. If specific
jurisdiction over a nonresident is lacking under M. R.
Civ. P. 4(b)(1), the analysis ends and Montana courts
‘‘must decline jurisdiction’’ without consideration of
federal due process requirements. Simmons, 206
Mont. at 272, 670 P.2d at 1376. Under M. R. Civ. P.
4(b)(1)(A), specific personal jurisdiction exists over
any individual who is the subject of a ‘‘claim for relief
arising from’’ the individual’s ‘‘transaction of any
business within Montana.’’ (Emphasis added.) Thus,
the limited scope of inquiry under Rule 4(b)(1)(A) is
whether the claim at issue arises from any substantial
business activity carried on by the nonresident in
Montana. See M. R. Civ. P. 4(b)(1)(A); Grizzly Sec. Armored Express, Inc., ¶ 23.

App. 19
¶31 Here, the District Court narrowly focused on facts
that, in isolation, would weigh against exercise of specific jurisdiction, e.g.: (1) Continental contracted with
an independent contractor to perform the actual onsite tank-gauging and flow rate monitoring on the
North Dakota well site; (2) Continental did not involve subcontract employees in safety meetings and
training provided to its own employees; (3) Continental did not specify or provide safety equipment for use
by subcontract employees; and (4) Continental expected that subcontractors, and their employees,
would independently have the safety training and
equipment necessary to safely perform assigned subcontract work. Based on those isolated facts, the District Court essentially concluded that Buckles’s asserted claims did not arise from any Continental business activity in Montana but, rather, from ‘‘alleged
unsafe worksite and events,’’ and related safety training and equipment inadequacies, in North Dakota.
¶32 As noted by the Majority, a non-resident does not
subject itself to Montana specific jurisdiction under
M. R. Civ. P. 4(b)(1)(A) merely by communicating and
entering into a contract with a Montana resident. See
Cimmaron Corp., ¶¶ 14-15 (citing Edsall Constr. Co.,
246 Mont. at 382, 804 P.2d at 1042). Two Montana
cases illustrate the point.
¶33 In Cimmaron, a Montana corporation contracted
with a non-resident Pennsylvania corporation for the
Pennsylvania corporation to serve as its Montana collections agent. Cimmaron, ¶¶ 4-5. The contract resulted from preliminary interstate communications
and a one-time trip to Montana by the principal in the
Pennsylvania corporation to negotiate the terms of

App. 20
the collection agency contract and an ancillary contract for the principal’s father to buy the Montana corporation’s accounts receivable. Cimmaron, ¶¶ 4-5 and
13.
¶34 Noting that interstate communications regarding
a contract ‘‘to be performed in another state’’ are insufficient alone for specific personal jurisdiction under M. R. Civ. P. 4(b)(1)(A), we affirmed the district
court’s dismissal of various contract and related tort
claims against the various non-resident defendants
because (1) their ‘‘sole contacts with Montana’’ were
contracts calling for the nonresident(s) to provide or
perform the subject services in another state and (2)
the alleged breaches of duty were based on conduct
that occurred outside Montana. Cimmaron, ¶¶ 14-15,
20-21 (emphasis omitted). We held that the underlying contract, and related interstate communications,
with the Montana company were insufficient alone to
establish specific long-arm jurisdiction under either
Rule 4(b)(1)(A) (transaction of business in Montana)
or Rule 4(b)(1)(B) (commission of act resulting accrual
of a tort in Montana) absent additional evidence indicating that the asserted breach of contract duty ‘‘arose
from business…transacted [by the non-resident]
within Montana.’’ Cimmaron, ¶¶ 16-21 (emphasis
omitted).
¶35 In contrast, in Nelson v. San Joaquin Helicopters,
228 Mont. 267, 742 P.2d 447 (1987), a Montana resident contracted by phone with a California company
to repair his helicopter in California, upon delivery
from Montana. Nelson, 228 Mont. at 268-69, 742 P.2d
at 447-48. Due to the prohibitive cost of repair, Nelson

App. 21
and the company later agreed by phone that the company would buy the helicopter and make installment
payments on the purchase price under a promissory
note from the company to Nelson, but with the actual
payments to be made on behalf of the company by a
third-party Montana company, in satisfaction of a
debt owed to the California company, under a separate agreement between the companies. Nelson, 228
Mont. at 268-69, 742 P.2d at 448.1 When the Montana
company failed to make the required payments to Nelson on behalf of the California company, Nelson sued
the California company in Montana on the promissory
note. Nelson, 228 Mont. at 269, 742 P.2d at 448. In
contrast to the non-resident’s lack of claim-related
contact in Montana in Cimmaron, we held that the
California company had sufficient claim-related contacts with Montana to establish jurisdiction under M.
R. Civ. P. 4(b)(1)(A) based not only on its contract and
related interstate communications with Nelson, but
also on its: (1) use of the Montana company as Nelson’s Montana payor; (2) ongoing business relationship with the Montana company; and (3) prior transaction related debt collection attempts against the
Montana company, which in turn resulted in the Montana company’s claim-related relationship with Nelson. Nelson, 228 Mont. at 272, 742 P.2d at 450.
¶36 Here, in contrast to the lack of claim related business contact with Montana in Cimarron, there is evidence, however disputed, that in addition to its significant business operations in Montana, Continental
The Montana company’s debt to the California company related
to a recent settlement of a contract dispute in which Nelson was
not involved. Nelson, 228 Mont. at 268-69, 742 P.2d at 448.
1

App. 22
also had substantial claim-related business contact
with the North Dakota well site from Montana. As
recognized by the Court, Continental maintained and
exercised overall management and supervisory control over daily operations at the North Dakota well
site from its office in Sidney, Montana. Regardless of
the fact that it contracted out for third-party performance of the on-site flow monitoring and tank-gauging operations, there is evidence that Continental
maintained the right and authority to set the flow
rates and to determine and specify the standards of
performance of the independent contract work.
¶37 Moreover, the pertinent contract language in the
contract between Continental and BH Flowtest went
no further than assigning the specified contract work
to BH, providing that BH agreed ‘‘to comply with all
[applicable] laws, rules, and regulations,’’ and stating
BH’s acknowledgment that Continental would ‘‘rely
upon’’ its representation that all BH ‘‘employees and
agents have been trained to follow all applicable laws,
rules, and regulations and work safely.’’ Nothing in
the contract language constituted a deferral or delegation of site safety responsibility by Continental to
BH Flowtest or its subcontractors. Nor did it effect or
manifest an assumption of that responsibility by BH
Flowtest. Against the backdrop of that limited contract language, there is evidence that Continental retained ultimate authority and control over the well
site, ensured that contractors complied with basic
safety requirements, and ensured that both its employees and contractors had required personal safety
equipment. The District Court’s narrow focus on the
situs of injury and chain of independent contractors
separating Continental therefrom overlooks Buckles’s

App. 23
complaint allegations under the liberal standard of M.
R. Civ. P. 12(b)(2), as well as the supplemental evidentiary basis, however slim at this juncture, that
could conceivably support a negligence claim that
Continental was either directly liable for the injury,
based on its retention of Montana control over the
North Dakota well site operations and conditions,2 or
vicariously liable based on a nondelegable duty of care
arising from the alleged abnormally dangerous activity or peculiar risk of harm at issue.3

See, e.g., Beckman, ¶¶ 12, 32-39 (retained control exception to
independent contractor rule—citing Umbs v. Sherrodd, Inc., 246
Mont. 373, 376, 805 P.2d 519, 520 (1991) and Restatement (Second) of Torts § 414 (Am. Law. Inst. 1965) (duty of principal who
delegates work to independent contractor but ‘‘retains control of
any part of the work’’ to use reasonable care within the scope of
the retained control to protect others from foreseeable risks of
harm resulting from negligent acts or omissions of subcontractor
and agents thereof)).
2

Nondelegable duty is an exception to the general rule of nonliability for the tortious conduct of independent contractors and
may arise from contracts for the performance of abnormally dangerous activity, contracts for the performance of activity posing
a peculiar risk of harm, or statutory, regulatory, or contract duties of safety. See, e.g., State v. Silver Bow County, 2009 MT 414,
¶¶ 24-29, 353 Mont. 497, 220 P.3d 1115 (state vicariously liable
for county negligence under state highway maintenance contract
based on county breach of non-delegable state duty); Beckman,
¶¶ 12-28 (vicarious liability of county for independent contractor
breach of county’s nondelegable duty regarding inherently dangerous activity or activity posing peculiar risk of harm); Stepanek v. Kober Const., 191 Mont. 430, 625 P.2d 51 (1981); Restatement (Third) of Torts: Physical and Emotional Harm § 57
cmt. a-b (Am. Law Inst. 2012); Restatement (Second) of Torts
§§ 413, 416, and 427.
3

App. 24
¶38 Buckles’s complaint specifically alleges, inter
alia, that:
Oil drilling and its associated activities [including] manual tank gauging is an inherently dangerous activity and it was readily ascertainable
to [Continental, et al.,] that manual tank gauging of crude oil production tanks would pose peculiar risks to all involved, as well as, dangers
special…and inherent…and that adequate precautions were required against recognized hazards that were causing or likely to cause death
or serious physical harm [including] overexposure to hydrocarbon vapors. [Continental, et
al.,] knew of hazards associated with manually
gauging crude oil production tanks and of the
strict requirements for adequate and appropriate air monitoring equipment, as well as training regarding overexposure to hydrocarbon vapors while manually gauging crude oil production tanks.
Unlike in Cimmaron, there is evidence that supervisory Continental employees were onsite from Montana daily, supervising and directing site operations
with authority and duty to detect and correct on-site
safety problems. While the alleged injury occurred in
North Dakota, there is ample evidence upon which
Buckles could conceivably prove that the alleged
breach of duty by Continental at least partially occurred in or arose from Montana based on supervisory
or management decisions or omissions in Montana regarding operations, conditions, and precautions at the
North Dakota well site. Thus, the essence of the District Court’s conclusion that Buckles’s claims do not

App. 25
arise from any Continental business activity in Montana but, rather, exclusively from ‘‘alleged unsafe
worksite and events,’’ and related safety training
equipment inadequacies, in North Dakota is erroneous. Based on Continental’s substantial claim-related
contact to the North Dakota well site from Montana,
the jurisdictional facts in this case are not only more
analogous to those in Nelson than Cimmaron, but
even more substantial, qualitatively, than those
found sufficient in Nelson.
¶39 The proper focus of the Rule 4(b)(1)(A) inquiry is
on the relevant jurisdictional facts—not facts that go
to the merits of the asserted claims. See Buckles I,
¶ 23 (jurisdiction ‘‘should [be] determine[d]…only on
the necessary jurisdictional facts and not on the merits of the case’’ (internal citation omitted)). As noted
by the Majority, the threshold ‘‘jurisdictional facts are
so intertwined with the merits [of Buckles’s claims]
that a decision on the jurisdictional issues [necessarily] depends on a decision on the merits,’’ whether
at the summary judgment stage, on proper motion at
the close of the plaintiff’s case at trial, or by special
verdict form. M. R. Civ. P. 4(b)(1)(A) does not require
Buckles to prove that all elements of the asserted
claims occurred in Montana or that Montana has
more significant contacts and relationship to the elements of the claims than North Dakota. Rule
4(b)(1)(A) requires only that the asserted claim for relief arose in whole or in part from ‘‘any business [conducted by Continental] within Montana.’’ (Emphasis
added.) Regardless of whether North Dakota may
have more or closer claim-related contacts, Buckles
has shown that Montana also has minimally suffi-

App. 26
cient claim-related contacts under the relatively undemanding standards of M. R. Civ. P. 12(b)(2) and
4(b)(1)(A). I would thus more affirmatively hold that
Buckles has alleged and shown sufficient facts to satisfy the Rule 4(b)(1)(A) requirement that that her asserted claims arose at least in part from Continental’s
substantial business activity in Montana.
¶40 Independent of M. R. Civ. P. 4(b)(1)(A), the Fourteenth Amendment Due Process Clause bars state
courts from rendering a ‘‘personal judgment against a
nonresident defendant’’ unless ‘‘‘minimum contacts’
[exist] between the defendant and the forum state,’’
such that exercise of personal jurisdiction over the
nonresident will comport with the traditional due process concepts of fairness and ‘‘substantial justice’’
within the limits of co-equal state sovereignty in our
system of constitutional federalism. Simmons, 206
Mont. at 272-75, 670 P.2d at 1376-78. Exercise of specific Montana jurisdiction over a nonresident generally comports with traditional due process concepts of
fairness and substantial justice if:
(1) the nonresident has performed or engaged in
some forum-related ‘‘act’’ or ‘‘transaction’’ to
purposely benefit from ‘‘the privilege of conducting [business] in the forum’’ state, thereby subjecting itself to the law of the forum state;
(2) claim at issue ‘‘arises out of or results from’’
the nonresident’s ‘‘forum-related activities’’;
and
(3) exercise of jurisdiction by the forum state is
reasonable under the circumstances.

App. 27
Simmons, 206 Mont. at 276, 670 P.2d at 1378; Data
Disc, Inc., 557 F.2d at 1287. Accord B.T. Metal Works,
¶ 34 (citing Simmons, 206 Mont. at 272-73, 670 P.2d
at 1376-77 and Data Disc, Inc., 557 F.2d at 1287);
Bristol-Myers Squibb Co., –– U.S. ––, 137 S. Ct. at
1785-86.
¶41 Here, Continental was unquestionably engaged
in substantial business activities in Montana, thereby
benefitting from the privilege of conducting business
here and subjecting itself to our law. As to the second
due process factor, the claim at issue need only ‘‘arise
out of or relate to’’ the nonresident’s forum-related activities. Bristol-Myers Squibb, –– U.S. at ––, 137 S. Ct.
at 1786 (internal quotation omitted—emphasis
added). Regardless of whether North Dakota may
have more or closer claim-related contracts, Buckles’s
asserted claims also clearly arise from and relate to
Continental’s business activities in Montana on the
same grounds that specific jurisdiction exists under
M. R. Civ. P. 4(b)(1)(A).
¶42 Under the third due process factor, the reasonableness of the exercise of state jurisdiction over a nonresident generally depends on: (1) the relative burden
on the nonresident of having to appear and litigate in
the forum-state; (2) the forum-state’s interest in adjudicating the type of dispute at issue; (3) the ‘‘plaintiff’s
interest in obtaining convenient and effective relief’’
in accordance with ‘‘the plaintiff’s power [within the
rules of civil procedure] to choose the forum’’; (4) the
‘‘interstate judicial system’s interest in obtaining the
most efficient resolution of controversies’’; and (5) ‘‘the
shared interest of the several States in furthering fundamental substantive social policies.’’ Simmons, 206

App. 28
Mont. at 273-74, 670 P.2d at 1377 (quoting WorldWide Volkswagen Corp. v. Woodson, 444 U.S. 286,
292, 100 S. Ct. 559, 564 (1980)). Accord Bristol-Myers
Squibb, –– U.S. at ––, 137 S. Ct. at 1786. Here, the
relative burden on Continental of having to appear
and litigate this dispute in eastern Montana, rather
than a relatively short distance across the border in
western North Dakota, will be minimal, if any. Continental has made no showing to the contrary.
¶43 Moreover, under the closely related circumstances of this case, Montana’s interest in adjudicating this dispute is no less than North Dakota’s interest. The interstate judicial system interest in obtaining the most efficient resolution of controversies, and
the shared interest of Montana and North Dakota in
furthering fundamental substantive social policies,
will be equally served in Montana or North Dakota
under the circumstances of this case. Finally, adjudication of this dispute in Montana will serve Buckles’s
interest and prerogative to choose the forum, as authorized by the generally applicable rules of civil procedure, without unfair or undue burden on Continental. Thus, adjudication of this dispute in Montana will
comport with traditional notions of fairness and due
process under the circumstances of this case.
¶44 Resolution of the threshold jurisdictional issue is
an extremely close call based on the limited state of
the lower court factual record and the standard of review for motions to dismiss under M. R. Civ. P. 4 and
12(b)(2). The liberal Rule 12 standard, set intentionally low to favor trial on the merits of genuine issues
of material fact, is particularly important where, as

App. 29
here, the jurisdictional facts are inseparably intertwined at this early stage with genuine issues of fact
material to the merits of the currently-pled claims for
substantive relief. Without prematurely adjudicating
disputed issues of fact material to those substantive
merits, these intertwined circumstances necessarily
require some consideration of the conceivable factual
and legal courses that this litigation may take and
which may necessarily preclude a Rule 12 dismissal
right out of the gate. As the factual record and claims
for relief continue to evolve on the Rule 56 and trial
records, the question of Montana jurisdiction will remain a live issue, at risk to Buckles upon appropriate
defense motion or special interrogatory.
¶45 I concur in the ultimate holding of the Court. But,
based on Buckles’s well-pled complaint allegations,
and the limited factual record at this stage of proceedings, I would more affirmatively hold that exercise of
specific Montana jurisdiction is proper under M. R.
Civ. P. 4(b)(1)(A) and the Fourteenth Amendment
Due Process Clause and that the District Court thus
erroneously granted Continental’s motion to dismiss
due to lack of personal jurisdiction.
/s/ DIRK M. SANDEFUR
Chief Justice Mike McGrath and Justice Ingrid Gustafson join in the concurring Opinion of Justice
Sandefur.
/s/ MIKE McGRATH
/s/ INGRID GUSTAFSON
***

App. 30
Justice Laurie McKinnon, dissenting.
¶46 I dissent.
¶47 I would conclude Buckles has failed to establish
even a prima facie case Continental’s relevant, suitspecific conduct—that Continental failed to secure a
safe worksite and provide for adequate safety equipment and training—occurred in Montana. As the District Court determined:
The ‘‘suit-related conduct’’ arose out of an alleged unsafe work site and events that occurred
at the oil well in North Dakota, a sub-contractor
that performed job-related duties in North Dakota, sub-contractor training occurring on the
job in North Dakota, and sadly, the death of
[Zachary] that occurred on a well-site in North
Dakota.
This Court, however, concludes that Montana’s longarm statute applies because Montana’s non-delegable
duty doctrine provides the ‘‘necessary ‘affiliation between the forum and the underlying controversy.’’’
Opinion, ¶ 24 (quoting Tackett, ¶ 19). The Court next
concludes that Continental’s extensive business activities in Montana make the exercise of jurisdiction over
Continental reasonable. Opinion, ¶ 27. In my opinion,
the Court also misapplies the reasoning in Data Disc,
Inc., and fails to abide by our standard of review. I
disagree with these conclusions and begin by examining Montana’s long-arm statute.
¶48 Montana’s long-arm statute provides that ‘‘any
person is subject to the jurisdiction of Montana courts

App. 31
as to any claim for relief arising from the doing personally, or through an employee or agent, of any of the
following acts: (A) the transaction of any business
within Montana….’ M. R. Civ. P. 4(b)(1).1 Preliminarily, although Buckles was given the opportunity to
present ‘‘jurisdictional’’ evidence, Buckles offered no
evidence of contracts between Continental and Black
Rock, Black Gold, or Buckles, or of any agency agreement between Continental and the other Defendants.
Accordingly, Buckles has failed to present evidence
that Continental acted through an ‘‘employee’’ or
‘‘agent’’ or otherwise delegated a non-delegable duty.
Buckles contends that Continental’s general oversight of the North Dakota wells was negligent respecting the safety of the workplace and provision of safety
equipment and training. Importantly, Buckles has
not argued that Continental delegated a non-delegable duty to an agent or employee in contravention of
Montana’s non-delegable duty doctrine—only this
Court has.
¶49 Next, recognizing that Continental’s MSA with
BH Flowtest was not sufficient to invoke long-arm jurisdiction over Continental under M. R. Civ. P.
4(b)(1)(A), the Court nonetheless tethers ‘‘specific’’ or
‘‘case-linked’’ jurisdiction to Continental by applying
Montana doctrinal law, which the Court concludes
The other subsections of Montana’s long-arm statute provide
for jurisdiction when the ‘‘commission of any act result[ed] in accrual within Montana of a tort action,’’ M. R. Civ. P. 4(b)(1)(B);
and when the claim arises out of ‘‘the ownership, use, or possession of any property, or of any interest therein, situated within
Montana,’’ M. R. Civ. P. 4(b)(1)(C). These subsections are not applicable to the facts and neither the parties nor the Court address them.
1

App. 32
may allow for the creation of a non-delegable duty
owed by Continental to Buckles. Opinion, ¶¶ 18, 24.
The Court holds that whether the non-delegable duty
doctrine applies, thus creating case-specific jurisdiction over Continental, depends upon the application
of Montana’s case law, specifically the Beckman factors and exceptions. Opinion, ¶¶ 21, 24. Further, the
Court’s reasoning requires a determination that oil
gauging in North Dakota is an inherently dangerous
activity under Montana law. In essence this Court
uses Montana doctrinal law to hail Continental into
its courts under a theory that the non-delegable duty
doctrine can establish suit-related conduct. Unfortunately, in doing so, the Court commingles Montana’s
substantive law relevant to Montana’s workplaces
and jurisdictional law relevant to a defendant’s suitrelated conduct and contacts.
¶50 The Court concludes the long-arm statute applies, without noting or providing an analysis under
the relevant subsection and does not explain why
Montana doctrinal law should control workplace
safety at a North Dakota worksite. The Court fails to
distinguish between important principles of interstate federalism underlying specific jurisdiction and
principles underlying the creation of Montana doctrinal law, which are derived primarily from the jurisprudence of this Court and policies of the Montana
legislature. For these reasons, I believe the Court fundamentally errs when it concludes Montana’s longarm statute confers jurisdiction over Continental via
Montana’s non-delegable duty doctrine. I now turn,
despite this conclusion, to whether the exercise of specific personal jurisdiction over Continental comports
with federal due process considerations.

App. 33
¶51 Settled principles underlying personal jurisdiction consider a variety of interests, including regard
for Fourteenth Amendment due process, the burden
on the defendant, practical problems of litigating in
the forum, and respect to limits on federalism interests. ‘‘A state court’s assertion of jurisdiction exposes
defendants to the State’s coercive power, and is therefore subject to review for compatibility with the Fourteenth Amendment’s Due Process Clause.’’ Goodyear
Dunlop Tires Operations, S.A. v. Brown, 564 U.S. 915,
918-19, 131 S. Ct. 2846, 2850-51 (2011) (citing Int’l
Shoe Co. v. Washington, 326 U.S. 310, 316, 66 S. Ct.
154, 158 (1945)). In order for a court to exercise specific jurisdiction over a claim, there must be an ‘‘‘affiliatio[n] between the forum and the underlying controversy,’ principally, [an] activity or an occurrence that
takes place in the forum State and is therefore subject
to the State’s regulation.’’ Goodyear, 564 U.S. at 919,
131 S. Ct. at 2851 (internal citation omitted); see also
Bristol-Myers Squibb Co., 137 S. Ct. at 1781. The
‘‘suit’’ must ‘‘arise[] out of or relate[] to the defendant’s
contacts with the forum.’’ Daimler AG, 571 U.S. at
127, 134 S. Ct. at 754 (quoting Helicopteros Nacionales de Colombia, S. A. v. Hall, 466 U.S. 408, 414, 104
S. Ct. 1868, 1872 (1984)); see also Burger King Corp.
v. Rudzewicz, 471 U.S. 462, 472-74, 105 S. Ct. 2174,
2182, 85 L.Ed.2d 528 (1985). ‘‘For this reason, specific
jurisdiction is confined to adjudication of issues deriving from, or connected with, the very controversy that
establishes jurisdiction.’’ Bristol-Myers Squibb Co.,
137 S. Ct. at 1780 (emphasis added; internal quotation marks omitted); see also Goodyear, 564 U.S. at
919, 131 S. Ct. at 2851 (Even though Goodyear had
plants in North Carolina and regularly engaged in

App. 34
commercial activity there, ‘‘[b]ecause the episode-insuit, the bus accident, occurred in France, and the tire
alleged to have caused the accident was manufactured and sold abroad, North Carolina courts lacked
specific jurisdiction to adjudicate the controversy,’’ as
the dispute did not arise from or relate to Goodyear’s
contacts with the forum.).
¶52 Due process limits on the State’s adjudicative authority principally protect the liberty of the nonresident defendant—not the convenience of plaintiffs or
third parties. Walden, 571 U.S. at 284, 134 S. Ct. at
1122. For specific jurisdiction, ‘‘a defendant’s general
connections with the forum are not enough.’’ BristolMyers Squibb Co., 137 S. Ct. at 1781. ‘‘A corporation’s
‘continuous activity of some sorts within a state’…‘is
not enough to support the demand that the corporation be amenable to suits unrelated to that activity.’’’
Goodyear, 564 U.S. at 927, 131 S. Ct. at 2856 (quoting
Int’l Shoe, 326 U.S. at 318, 66 S. Ct. at 159). Thus,
‘‘consistent with due process, the defendant’s suit-related conduct must create a substantial connection
with the forum State.’’ Walden, 571 U.S. at 284, 134
S. Ct. at 1121 (emphasis added).
¶53 As to limitations on the exercise of personal jurisdiction and principles of federalism, the ‘‘primary concern’’ is assessing ‘‘the burden on the defendant,’’
which requires the court to consider the practical
problems resulting from litigating in the forum and
‘‘the more abstract matter of submitting to the coercive power of a State that may have little legitimate
interest in the claims in question.’’ Bristol-Myers
Squibb Co., 137 S. Ct. at 1780. Restrictions on per-

App. 35
sonal jurisdiction ‘‘are more than a guarantee of immunity from inconvenient or distant litigation’’; rather, ‘‘[t]hey are a consequence of territorial limitations on the power of the respective States.’’ WorldWide Volkswagen Corp. v. Woodson, 444 U.S. 286,
294, 100 S. Ct. 559, 565 (1980). States ‘‘retain many
essential attributes of sovereignty, including, in particular, the sovereign power to try causes in their
courts. The sovereignty of each State…implie[s] a limitation on the sovereignty of all sister States.’’ WorldWide, 444 U.S. at 293, 100 S. Ct. at 565. ‘‘[A]t times,
this federalism interest may be decisive.’’ Bristol-Myers Squibb Co., 137 S. Ct. at 1780. As the Supreme
Court explained in World-Wide:
Even if the defendant would suffer minimal or
no inconvenience from being forced to litigate
before the tribunals of another State; even if the
forum State has a strong interest in applying its
law to the controversy; even if the forum State
is the most convenient location for litigation, the
Due Process Clause, acting as an instrument of
interstate federalism, may sometimes act to divest the State of its power to render a valid judgment.
World-Wide, 444 U.S. at 294, 100 S. Ct. at 565-66.
¶54 These rules, when applied to the District Court’s
findings and conclusions, reveal that the connection
between the suit-related conduct (safety of the North
Dakota well site) and the forum (Montana) must arise
out of the contacts Continental itself created with
Montana. The affiliation between the suit-related conduct and the forum must be substantial and is determined by the defendant’s contacts which he himself

App. 36
has created, not by doctrinal law of the forum state.
Otherwise, the jurisdictional examination diverts the
inquiry from the quality of the defendant’s contacts
with the forum state in relation to the suit-related
conduct, to an inquiry of the substance and reach of
any particular state law. The Court’s use of Montana’s
non-delegable duty doctrine to manufacture jurisdiction swallows up the protections afforded by the Due
Process Clause and defeats principles of interstate
federalism. Under the Court’s reasoning, any business, entity, or person with a contact or connection to
Montana is subject to the specific jurisdiction of Montana courts for potentially any conduct done within
the fifty states or internationally, if that defendant
can be brought within the reach of Montana’s non-delegable duty doctrine, or, for that matter, some other
Montana law.
¶55 Here, North Dakota and Oklahoma have significant interests in the policies and laws respecting the
oil industry as conducted within the confines of each
State’s borders. Continental is ‘‘at home’’ and subject
to general jurisdiction in Oklahoma; it owns the oil
site in North Dakota where the accident occurred and
is, therefore, subject to specific jurisdiction in North
Dakota. Both North Dakota and Oklahoma offer
Buckles a forum. Both states have strong sovereign
interests in the welfare of their workers and business
owners related to oil production in their respective
states. These sovereign interests include economic interests, such as the interests of workers, oil industry
jobs, and state economies; the interests of constituents; and state laws reflecting the policies of each respective legislature. While Montana too has an interest in providing access to its courts, implementing its

App. 37
legislative policies, and applying the jurisprudence of
this Court, that interest may not unreasonably extend
beyond Montana’s boundaries into our sister states,
unless the constitutional requirements respecting interstate federalism have been met. The Due Process
Clause does not permit Montana to extend its non-delegable duty law to exercise jurisdiction and define a
lawsuit arising out of a death at a North Dakota well
site owned by an Oklahoma company. Here, the Due
Process Clause must act to protect the interests of
North Dakota and Oklahoma in not being governed
by Montana’s laws, just as it acted in Ford Motor Co.
to protect the interests of Montana in its roadways.
There is no evidence that Continental’s Sidney office
provided Buckles with faulty equipment or training,
or that Buckles was injured in Montana by Continental’s inaction elsewhere. Absent such evidence, the
Due Process Clause, acting as an instrument of interstate federalism, requires that Montana decline to exercise specific jurisdiction in this case.
¶56 Beyond the errors arising from the Court’s commingling of substantive and procedural law, in my
opinion, the Court also misapplies the analysis of
Data Disc, Inc. Opinion, ¶ 24. Data Disc, Inc., 557
F.2d at 1285-86 n. 2, 1289 nn. 5-7, stands for the principle that a plaintiff, depending on the manner of
proof set by the trial court, may be entitled to an opportunity to prove jurisdictional facts while also presenting substantive facts relevant to a trial on the
merits. However, contrary to the Court’s reasoning,
Data Disc, Inc. does not stand for the proposition that
a plaintiff may have two opportunities to present jurisdictional facts: first, during a pretrial hearing
where the plaintiff is held to the same preponderance

App. 38
standard of proof as during trial; and then, again, during the trial. Opinion, ¶ 24. Here, Buckles has already
been provided an opportunity to prove jurisdictional
facts by a preponderance of the evidence. Buckles is
not entitled during the trial, a second opportunity to
establish jurisdictional facts by a preponderance of
the evidence.
¶57 In Data Disc, Inc., the district judge orally ruled
there was no jurisdiction following oral argument and
conflicting affidavits submitted by both parties. No
findings of fact were made in the order of dismissal.
Data Disc, Inc., 557 F.2d at 1284. The Ninth Circuit
concluded that the affidavits were in conflict regarding jurisdictional facts. However, instead of resolving
the factual disputes, the Court determined that jurisdiction could be determined by reference to the standard of review. Data Disc, Inc., 557 F.2d at 1285. The
Court explained ‘‘the quantum of proof required to
meet that burden may vary, depending upon the nature of the proceeding and the type of evidence which
the plaintiff is permitted to present.’’ Data Disc, Inc.,
557 F.2d at 1285. Because there is no statutory
method for resolving a motion to dismiss for lack of
personal jurisdiction, the ‘‘mode of its determination
is left to the trial court,’’ and the ‘‘limits which the district judge imposes on the pre-trial proceedings will
affect the burden which the plaintiff is required to
meet.’’ Data Disc, Inc., 557 F.2d at 1285. Accordingly,
If the court determines that it will receive only
affidavits or affidavits plus discovery materials,
these very limitations dictate that a plaintiff
must make only a prima facie showing of jurisdictional facts through the submitted materials

App. 39
in order to avoid a defendant’s motion to dismiss. Any greater burden—such as proof by a
preponderance of the evidence—would permit a
defendant to obtain a dismissal simply by controverting the facts established by a plaintiff
through his own affidavits and supporting materials.
Data Disc, Inc., 557 F.2d at 1285. Conversely, if the
‘‘pleadings and other submitted materials raise issues
of credibility or disputed questions of fact with regard
to jurisdiction, the district court has the discretion to
take evidence at a preliminary hearing in order to resolve the contested issues.’’ Data Disc, Inc., 557 F.2d
at 1285 (emphasis added). ‘‘In this situation, where
plaintiff is put to his full proof, plaintiff must establish the jurisdictional facts by a preponderance of the
evidence, just as he would have to do at trial.’’ Data
Disc, Inc., 557 F.2d at 1285. ‘‘Where the jurisdictional
facts are intertwined with the merits, a decision on
the jurisdictional issues is dependent on a decision of
the merits. In such a case, the district court could determine its jurisdiction in a plenary pretrial proceeding.’’ Data Disc, Inc., 557 F.2d at 1285 n. 2 (emphasis
added).
¶58 Here, Buckles had a chance to establish jurisdiction at a ‘‘plenary pretrial proceeding’’ at which Buckles ought to be held by this Court, under the authority
of Data Disc, Inc., to the same burden of proof as if it
were a trial on the merits. In my opinion, Buckles has
failed to meet the jurisdictional burden of proof and
should not be given a third opportunity during trial to
prove jurisdiction.

App. 40
¶59 Finally, the Court also fails to adequately abide
by the standard of review. Here, ‘‘[w]e review a district court’s findings of fact and conclusions of law regarding personal jurisdiction to determine whether
the findings are clearly erroneous and whether the
conclusions are correct.’’ Buckles I, ¶ 9. The Court recites many of the District Court’s findings of fact and
acknowledges that the owner and operator of a well
complex is not liable for any torts committed by its independent contractors. Opinion, ¶ 21. Nowhere has
the Court pointed to findings made by this District
Court, or even the previous trial court, which were
clearly erroneous or applied incorrect conclusions of
law. Despite this, the Court charters Buckles through
a Beckman analysis and offers a third opportunity to
prove jurisdiction. Opinion, ¶¶ 21-24. It is the responsibility of the plaintiff to prove jurisdiction and establish its own trial strategy. Here, the Court suggests
Continental may have a nondelegable duty despite
Buckles never having advanced such an argument
themselves. Indeed, Continental has not offered into
evidence any of the contracts which would establish
an agency, subcontractor, or employee relationship. I
would abide by the standard of review and, where the
trial court has not erred according to that standard of
review, this Court must not remand to provide the
plaintiff—who carries the burden of proof—a third opportunity to meet that burden.
¶60 To reiterate, the District Court concluded that
every relevant instance of Continental’s suit-related
conduct occurred in North Dakota. Not a single fact
regarding Continental’s actions arose in Montana.
Just as in Goodyear, it is irrelevant that Continental
maintained an office in Sidney, Montana, because the

App. 41
episode-in-suit arose out of an alleged unsafe work
site and events that occurred at an oil well in North
Dakota, a sub-contractor that performed job-related
duties in North Dakota, training for subcontractors
occurring on the job in North Dakota, and Zachary’s
accident, and tragic death, that occurred on a well site
in North Dakota. Given these facts, I would hold that
Buckles has failed to establish even a prima facie case
that any of Continental’s relevant, suit-specific conduct occurred in Montana.
¶61 In my opinion, these proceedings raise significant
concerns over interstate federalism. Application of
Montana law to assert specific jurisdiction on behalf
of a Montana plaintiff infringes upon the sovereignty
of North Dakota and Oklahoma where the suit related
conduct arises out of an accident on a North Dakota
oil well site, where the defendant is a resident of Oklahoma, and where no jurisdictional facts exist showing that Continental oversaw the safety of the well
site from its Sidney office in Montana. I dissent from
the Court’s decision concluding otherwise, and from
its strained efforts to accommodate Buckles in proving their case.
/s/ LAURIE McKINNON

App. 42
APPENDIX B
MONTANA SEVENTH JUDICIAL DISTRICT
COURT, RICHLAND COUNTY
Cause No. DV 2015-014
Honorable Olivia Rieger, District Judge
Filed January 14, 2019
____________
ZACHARY SCOTT BUCKLES, Deceased, by and
through his personal representative, NICOLE R.
BUCKLES, and NICOLE R. BUCKLES, Personal
Representative, on behalf of the heirs of ZACHARY
SCOTT BUCKLES,
Plaintiff,
vs.
CONTINENTAL RESOURCES, INC., and Oklahoma
Corporation, BH FLOWTEST, INC., a Montana Corporation, BLACK ROCK TESTING, INC., a Montana
Corporation, JANSON PALMER, d/b/a BLACK
GOLD TESTING, and JOHN DOES I-V
Defendant.
____________
FINDINGS OF FACT, CONCLUSIONS OF LAW
AND ORDER ON CONTINENTAL RESOURCES,
INC.’S MOTION TO DISMISS — Specific Personal
Jurisdiction
____________

App. 43
Before the Court is Defendant Continental Resources,
Inc.’s Motion to Dismiss pursuant to Montana Rule of
Civil Procedure 12(b)(2) for lack of personal jurisdiction. The Court conducted a hearing on August 13,
2018, to determine whether Defendant Continental
Resources, Inc. (“Continental”) is subject to specific
personal jurisdiction in Montana. Present at the hearing were A. Clifford Edwards, Roger W. Frickle, and
Robert J. Savage on behalf of the Plaintiffs and W.
Scott Mitchell on behalf of Continental Resources, Inc.
For the reasons presented below, Continental's Motion to Dismiss is granted.
Procedural Background
“On April 28, 2014, Zachary [Buckles] died of exposure to high levels of hydrocarbon vapors while manually gauging crude oil production tanks on Continental’s Columbus Federal 2-l 6H well site near Alexander, North Dakota. The Columbus Federal 2-l 6H well
site is a tank battery consisting of twenty tanks that
support five production oil wells, including the Tallahassee 2-16H tank number three and Tallahassee 316H tank number one. These wells are located on the
Bakken Reservoir. Continental oversees operation of
the Columbus Federal 2-16H well site from its corporate office in Sidney, Montana.” Buckles v. Cont’l Res.,
Inc., 2017 MT 235,13, 388 Mont. 517, 402 P.3d 1213.
“Around April 17, 2014, Zachary was dispatched by
his employer, Janson Palmer, doing business as Black
Gold Testing (“Black Gold”), to perform manual tank
gauging of the crude oil production tanks on Continental’s Columbus Federal 2-16H well site. Black
Gold was contracted to perform manual tank gauging
activities for Continental pursuant to Continental’s

App. 44
Master Service Contract with BH Flowtest, Inc., who
subcontracted with Black Rock Testing, Inc., who, in
turn, subcontracted with Black Gold. BH Flowtest,
Black Rock, and Black Gold are all Montana business
entities named as Co-Defendants with Continental in
this action.” Id. at ¶4.
“Continental is an Oklahoma corporation authorized
to do business in Montana since 1990, Continental
has significant operations in Montana, North Dakota,
South Dakota, and Oklahoma, with field offices in
Montana, North Dakota, South Dakota, Oklahoma,
and Texas. The Company owns an interest in 508 oil
and gas wells in Montana and operates 348 oil and
gas wells in Montana. Continental owns 119 motor vehicles that are licensed and registered in the State.
The Company also owns real property in multiple
Montana counties, including in Richland County
where this case is venued. Continental maintains two
Montana field offices in Baker and Sidney and three
North Dakota field offices in Killdeer, Rhame, and Tioga1.” Id. at ¶5.
“On March 2, 2015, Buckles filed suit in the Montana
Seventh Judicial District Court, Richland County, alleging that Continental and the other Defendants are
liable for Zachary’s death, The complaint alleged that
Continental and the other Defendants had a legal
duty under state and federal law to maintain a safe
and secure oil well site, and that Continental and the
Testimony throughout this case shows that there may be a field
office in Williston, North Dakota rather than Rhame, North Dakota. The specific location of the field office is not a dispositive
issue in this matter, as both field offices are located in the state
of North Dakota.
1

App. 45
other Defendants breached their duty by allowing an
inherently dangerous and unsafe well site to be Operated without adequate or appropriate air monitoring
equipment in place for the tank gauging activities.”
Id. at ¶6.
“Buckles argued the Montana Safe Place, to Work Act
and federal Occupational Safety and Health Act required the Defendants to properly train and, adequately equip Zachary, which they failed to do. Following jurisdictional discovery, Buckles cited an affidavit by Continental’s Area Production Manager of
Bakken Operations and an Excel spreadsheet produced by Black Gold containing flow data for Continental’s Columbus Federal 1-16H, Tallahassee 216H, and Tallahassee 3-16H well sites that denotes
Continental’s Sidney, Montana office was responsible
for oversight of the well site where Zachary died.” Id.
at ¶7.
“On April 17, 2015, Continental filed a motion to dismiss for lack of personal jurisdiction. The parties fully
briefed and submitted the issue to the District Court.
On August 19, 2016, the District Court granted Continental’s motion to dismiss. The District Court did
not hold an evidentiary hearing. The District Court’s
Order did not make any factual findings regarding
personal jurisdiction, did not address Buckles’ allegations concerning personal jurisdiction made in her
Complaint, and did not note whether it considered
those allegations in the light most favorable to Buckles. The Order contained only a paragraph setting
forth the procedural history of the case and concluded
that the Motion was being granted ‘[f]or the reasons
argued by Continental.’” Id. at ¶8.

App. 46
On November 1, 2016, Plaintiffs filed a Notice of Appeal with the Montana Supreme Court. On September 21, 2017, the Montana Supreme Court issued its
opinion. The Montana Supreme Court affirmed the
District Court’s ruling on the issue of general jurisdiction but reversed and remanded the case to the District Court “with instructions to conduct an evidentiary hearing for the purpose of determining whether
Continental is subject to specific personal jurisdiction
in Montana.” Id. at ¶29. In order to determine
whether Continental was subject to specific personal
jurisdiction in this case, the Parties were allowed additional time to conduct jurisdictional discovery. Following the completion of jurisdictional discovery, this
Court held a hearing on August 13, 2018 on the issue
of whether Continental is subject to specific personal
Jurisdiction in Montana. Based on oral arguments,
evidence presented, witness testimony, and applicable law, this Court issues the following:
Findings of Fact
1. Continental Resources, Inc. is an Oklahoma Corporation with its principal place of business in Oklahoma City, Oklahoma. Complaint, ¶3, Continental’s
Answer, ¶3.
2. Continental maintains field offices in Sidney, Montana, Tioga, North Dakota, Williston2, North Dakota,
and Killdeer, North Dakota. Leonard Dep. 16:11-16.
As indicated in the previous footnote, evidence received suggests Continental’s Field Offices are in Williston, North Dakota
but may be in Rhame, North Dakota. The specific location of the
field office is not a dispositive issue in this matter, as both field
offices are located in the state of North Dakota.
2

App. 47
3. Continental is the owner and operator of an oil well
Site and tank battery south of Williston, North Dakota, referred to as the “Columbus Federal/Tallahassee complex.” Complaint, ¶10.
4. The well site consists of five oil wells near the Missouri River south of Williston, North Dakota, that produces crude oil and natural gases. Complaint, ¶10.
5. The names of the wells on the Columbus Federal/Tallahassee complex are (1) Columbus Federal 116H, (2) Columbus Federal 2-16(H); (3) Columbus
Federal 3-16H, (4) Tallahassee 2-16H, and (5) Tallahassee 3-16H. Complaint, ¶16.
6. The Columbus Federal/Tallahassee tank battery is
located approximately one-half mile from the oil wells
on the Columbus Federal/Tallahassee complex. Janson Palmer Test. on Aug. 13, 2018, Jurisdiction. Hr’g.
7. Continental entered into a Master Services Agreement with Defendant BH Flowtest, Inc. to conduct
flowback testing services. Buckles at ¶4.
8. BH Flowtest, Inc. subcontracted the flowback testing to Black Rock Testing, Inc. Id. at ¶4.
9. Black Rock Testing, Inc. subcontracted the flowback testing to Janson Palmer, who performed the
work as Black Gold Testing. Id. at ¶4.
10. Janson Palmer, d/b/a Black Gold Testing, subcontracted the flowback testing to Zachary Buckles, who
performed the work as Dozer Well Testing. Id. at ¶4.
11. From January 2014 until Buckles’ death, both
Buckles and Palmer performed flowback testing in
North Dakota. Janson. Palmer Test. on Aug. 13, 2018,
Jurisdiction. Hr’g.

App. 48
12. On April 17, 2014, Buckles and Palmer began
flowback testing work on the Columbus Federal/Tallahassee complex. Buckles at ¶4.
13. On April 27, 2014, Buckles and Palmer were performing flowback testing work on the Columbus Federal/Tallahassee complex. Both were monitoring the.
Tallahassee 2-16H and the Tallahassee 3-16H wells.
Janson Palmer Test. on Aug. 13, 2018, Jurisdiction.
Hr’g.
14. On April 28, 2014, Zachary Buckles was found
dead at the tank battery. Complaint, ¶16.
15. Edward J. (Joe) Couture is Continental’s Senior
Production Foreman in Sidney, Montana. Couture
Dep. 9:9-10, 11:5-6, May 25, 2018.
16. Joe Couture’s office is located in Sidney, Montana.
Couture Dep. 8:9-12, 9:13-15.
17. Continental directs the work that subcontractors
perform on Continental’s various well sites. Couture
Dep. 19:5-14.
18. Continental has a distinct safety division that is
headed by Greg Borgstahl. Couture Dep. 19:15-22,
23:1-4.
19. Greg Borgstahl is Continental’s Senior Safety Specialist for the Sidney, Montana, field office. Borgstahl
Dep. 13:10-14, May 24, 2018.
20. Greg Borgstahl gave testimony that the Sidney
field office has supervisory control over the Tallahassee well site. Borgstahl Dep. 13:1-4.

App. 49
21. As to safety training, Greg Borgstahl testified that
the bulk of his safety training came from on-the-job
work experience. Borgstahl Dep. 16:13-17:1.
22. Clint Dunn was a Lease Operator for Continental’s Sidney, Montana, field office, Dunn Dep. 8:1710:13, May 24, 2018.
23. Clint Dunn was assigned wells, was responsible
for checking the facility, its equipment, and gauging
the tanks as to production on the well. Dunn Dep.
10:14-25.
24. Clint Dunn took online safety classes through
Continental. He would also attend the monthly safety
meetings in the Sidney field office. Dunn Dep. 14:715:14.
25. Dustin (Dusty) Grosulak was Continental’s Northern Region Health and Safety Coordinator. Grosulak
Dep. 10:9-13, May 25, 2018.
26. Dusty Grosulak oversaw Continental’s health and
safety program for drilling, completions, production,
and work over operations. Grosulak Dep. 12:1-7.
27. Dusty Grosulak travelled to various offices and
provided training to Continental’s employees, but not
its subcontractors. Grosulak Dep. 13:9-23
28. Dusty Grosulak expected subcontractors to be
trained adequately. Grosulak Dep. 13:24-14:5.
29. Dusty Grosulak testified that his training had
been on-the-job, not one that was based on a classroom setting. Grosulak Dep. 11:1-11.

App. 50
30. The geographical location of the Northern region
for Continental includes the state of Montana.
Grosulak Dep. 13:2-8.
31. Russell Atkins worked for Continental in April
2014 as its Bakken Production Manager out of the
Sidney, Montana, field office. Atkins Dep. 6:23-7:4,
July 9, 2018.
32. Russell Atkins was responsible for ensuring that
the tank battery was constructed, had personnel to
take care of the well, and that it was producing safely.
Atkins Dep. 12:1-5.
33. Russell Atkins testified that the individual tank
gauging set the flow rate. The individual tank gauging is an independent contractor. Atkins Dep. 16:222:5.
34. Russell Atkins testified that Continental had
monthly safety meetings and would have reviews to
ensure that employees and contractors had proper
personal protective equipment (PPE). Atkins Dep.
24:25-25:21. PPE consists of hardhats, eye protection,
and hearing protection. Atkins Dep. 25:20-21. Russell
Atkins testified that contractors were not included in
company safety meetings, but contractors had certain
basic safety guidelines that Continental ensured contractors complied with. Atkins Dep. 25:13-26:2.
35. Scott Michael Leonard is a Production Superintendent for Continental in the Sidney, Montana, field
office. Leonard Dep. 12:1-16, July 9, 2018.
36. Scott Leonard had production management responsibilities for all the oil wells that were under the
supervision of Continental’s Sidney, Montana, field
office, this included the Columbus Federal 2-16H, as

App. 51
well as the Tallahassee 2-16H and Tallahassee 3-16H.
Leonard Dep. 12:22-13:3.
37. Scott Leonard’s responsibilities as Production Superintendent for Continental’s Sidney, Montana field
office included daily operations of the wells, checking
wells, getting oil sold, water moved out, scheduling
minor maintenance, and setting of maintenance programs. Leonard Dep. 15:3-20.
38. Scott Leonard operates a Continental company vehicle that is registered in Richland County, Montana.
Leonard Dep. 24:10-20.
39. Darrel Berglund was a Production Foreman for
Continental and worked out of the Sidney, Montana,
field office. Berglund Dep. 9:25-10:10, July 26, 2018.
40. Continental’s Sidney, Montana, field office has supervisory control over the Tallahassee 2-16H well.
Borgstahl Dep. 12:6-13:9, Dunn Dep. 16:1-17:11,
26:11-20., Grosulak Dep. 19:6-13, Atkins Dep. 11:1217, Leonard Dep. 16:5-17:6, Janson Palmer Test. on
Aug. 13, 2018, Jurisdiction Hr’g.
41. Continental held monthly safety meetings in the
Sidney, Montana field office within the last five to six
years. The safety meetings were conducted by Greg
Borgstahl from the Sidney, Montana field office. Couture Dep. 22:1-23:6.
42. Mandatory monthly safety meetings were held in
Sidney, Montana. Berglund Dep. 27:6-15. Monthly
safety meetings were held at the Elks Lodge in Sidney, Montana. Leonard Dep. 22:20-24:9. Some of the
meetings included training on how employees should
conduct themselves around batteries with the various
gases present. Dunn Dep. 24:1-6.

App. 52
43. Continental had the authority to set the flow rates
for the wells that were being flow tested. Atkins Dep.
18:10-11.
44. At times, Palmer received directions on the flow
rates from Continental’s production foreman. Atkins
Dep. 16:2-22:5.
45. When Continental desired a change in flow rate,
the direction came from Scott Leonard, Joe Couture,
or Darrel Berglund, Janson Palmer Test. on Aug. 13,
2018, Jurisdiction. Hr’g.
Conclusions of Law
“Personal jurisdiction refers to a court’s power over
the parties in a proceeding.” Deleon v. BNSF Ry. Co.,
2018 MT 219, ¶7, 392 Mont. 446, 426 P.3d 1. “Personal jurisdiction can be either general or specific.”
Threlkeld v. Colorado, 2000 MT 369, ¶10, 303 Mont.
432, 16 P.3d 359. “General personal jurisdiction is
premised upon the defendant’s relationship to the forum state, while specific personal jurisdiction is premised upon the defendant’s relationship to both the forum state and the particular cause of action.” Deleon,
¶7.
“The exercise of specific personal jurisdiction ‘depends
on whether the defendant’s “suit related conduct” created a substantial connection with’ Montana. Tackett
v. Duncan, 2014 MT 253, 376 Mont. 348, 334 P.3d 920,
¶ 19, quoting Walden v. Fiore, 571 U.S. 277, 284, 134
S. Ct. 1115, 1121, 188 L. Ed. 2d 12 (2014). Therefore,
a Montana court has specific personal jurisdiction
over a defendant only when both the defendant and
the underlying controversy are appropriately affiliated with Montana. Tackett, ¶19, citing Daimler, 571

App. 53
U.S. at 133, 134 S. Ct. at 758 (stating that specific personal jurisdiction focuses on the “relationship among
the defendant, the forum, and the litigation”). If a
Montana court has specific personal jurisdiction over
a defendant, the court may adjudicate only those particular claims against the defendant—the defendant
is not subject to suit in Montana for unrelated conduct.” Deleon, ¶9, citing Tacket, ¶19.
“A court’s exercise of personal jurisdiction over a defendant, whether general or specific, is limited by the
Fourteenth Amendment’s Due Process Clause. A defendant must have certain minimum contacts [with
Montana] such that the maintenance of the suit does
not offend traditional notions of fair play and substantial justice.” Deleon, ¶10, citing Tackett, ¶18 (internal
citation and quotations omitted). The Montana Supreme Court applies a two-step test “to determine
whether a Montana court may exercise personal jurisdiction over a nonresident defendant.” Milky Whey,
Inc. v. Dairy Partners, LLC, 2015 MT 18, ¶18, 378
Mont. 75, 342 P.3d 13, quoting Tackett, ¶22. First, we
determine whether personal jurisdiction exists under
Montana’s long-arm statute, M. R. Civ. P. 4(b)(l).
Deleon, ¶ 10, citing Milky Whey, ¶18. “If the first step
is satisfied, we then determine whether exercising
personal jurisdiction over the defendant is constitutional-whether it conforms with ‘the traditional notions of fair play and substantial justice embodied in
the due process clause.’” Id., quoting Cimmaron Corp.
v. Smith, 2003 MT 73, ¶10, 315 Mont. 1, 67 P.3d 258.
Montana’s long-arm statute states:
(1) Subject to Jurisdiction. All persons found
within the state of Montana are subject to the

App. 54
jurisdiction of Montana courts. Additionally,
any person is subject to the jurisdiction of
Montana courts as to any claim for relief arising from the doing personally, or through an
employee or agent, of any of the following acts:
(A) the transaction of any business within
Montana;
(B) the commission of any act resulting in accrual within Montana of a tort action;
(C) the ownership, use, or possession of any
property, or of any interest therein, situated
within Montana;
(D) contracting to insure any person, property,
or risk located within Montana at the time of
contracting;
(E) entering into a contract for services to be
rendered or for materials to be furnished in
Montana by such person;
(F) acting as director, manager, trustee, or
other officer of a corporation organized under
the laws of, or having its principal place of
business within Montana; or
(G) acting as personal representative of any
estate within Montana.
M. R. Civ. P. 4(b)(l).
In Buckles, the Montana Supreme Court established
the following factors to determine whether Continental is subject to specific personal jurisdiction in Montana:

App. 55
(1) The nonresident defendant must do some
act or consummate some transaction with the
forum or perform some act by which he purposefully avails himself of the privilege of conducting activities in the forum, thereby invoking its laws. (2) The claim must be one which
arises out of or results from the defendant’s forum-related activities. (3) Exercise of jurisdiction must be reasonable.
Buckles, 2017 MT 235, ¶16, 388 Mont. 517,402 P.3d
1213.
When determining whether Continental is subject to
specific personal jurisdiction in Montana, the Court
must look at the “relationship among the defendant,
the forum, and the litigation.” Deleon, ¶9. Defendant
Continental is an Oklahoma corporation with permission to perform work in Montana. Continental has a
field office in Sidney, Montana, amongst others in the
state of North Dakota. Leonard Dep. 16:11-16. Continental is alleged to have maintained an unsafe workplace in North Dakota which caused Buckles’ death.
Buckles, ¶21. Buckles was performing flowback testing at the Columbus Federal/Tallahassee complex located in North Dakota when he died. Complaint, ¶16.
There is testimony in this case regarding the safety
training provided by Continental to employees from
both current and former Continental employees. Greg
Borgstahl testified that on-the-job work experience
provided the bulk of his safety training. Borgstahl
Dep. 16:13-17:1. Clint Dunn testified that there were
online safety classes through Continental and
monthly safety meetings in the Sidney field office.
Dunn Dep. 14:7-15:14. Dusty Grosulak testified that

App. 56
Continental employees, not sub-contractors, received
training in Sidney, Montana. Grosulak Dep. 13:9-23.
Russell Atkins testified that contractors were not included in the monthly safety meetings in Sidney, however, Continental ensured that contractors complied
with basic safety requirements. Atkins Dep. 25:1326:2. Taking into consideration the testimony above,
this Court concludes that Continental trained its own
employees in Montana, however, sub-contractors
were not trained.in Montana. Continental’s sub-contractors were expected to be trained on safety while
on-the-job; meaning Buckles would have received his
training in North Dakota.
In reviewing Continental’s “suit-related conduct,” this
Court determines that Continental did not create a
substantial connection with Montana to be subject to
specific personal jurisdiction in the state of Montana.
The “suit-related conduct” arose out of an alleged unsafe work site and events that occurred at the oil well
site in North Dakota, a sub-contractor that performed
job-related duties in North Dakota, sub-contractor
training occurring on the job in North Dakota, and
sadly, the death of Buckles that occurred on a wellsite in North Dakota. Testimony received shows that
Continental held safety meetings for its employees,
but not its sub-contractors, in the office in Sidney,
Montana. Because sub-contractors were expected to
be trained in proper safety protocols while on-the-job,
any failures in training which materialized on the oil
well sites located in North Dakota where Buckles died
fall outside of Montana’s jurisdiction.
When looking at the “relationship among the defendant, the forum, and the litigation,” the failures that

App. 57
led to Zachary’s tragic death materialized and came
to tragic fruition in North Dakota, thereby invoking
its laws, not the laws of Montana. This litigation arose
out of an alleged unsafe work site and events that occurred at the oil well site located in North Dakota. Although Continental owns an interest in 508 oil and gas
wells in Montana, operates 348 oil and gas wells in
Montana, owns 119 motor vehicles that are licensed
and registered in Montana, and owns real property in
multiple Montana counties, in reviewing Continental’s relationship to both the forum state of Montana
and this particular cause of action, this Court determines that Continental did not create a substantial
connection with Montana to be subject to specific personal jurisdiction in this suit, because both Zachary’s
alleged insufficient training and his death occurred in
North Dakota. Buckles, ¶5. In reviewing whether subjecting Continental to jurisdiction in Montana is reasonable, this Court concludes that it is not reasonable
based on the above-mentioned factors.
In Deleon, the Montana Supreme Court affirmed the
District Court’s order granting BNSF’s motions to dismiss for lack of personal jurisdiction. Deleon, 2018 MT
219 at ¶27. In Deleon, the Plaintiffs sued BNSF in
Montana for injuries that occurred in Texas. Id. at ¶4.
Similar to Continental’s numerous contacts with
Montana, BNSF was “a rail carrier incorporated in
Delaware with its principal place of business in Texas.
BNSF does business in Montana: it has 2,061 miles of
railroad track in Montana; employs approximately
2,100 workers in Montana; maintains an automotive
facility in Montana; and generates less than 10% of
its total revenue in Montana.” Id. at ¶3, quoting
BNSF. Ry. Co. v. Tyrrell, 581 U.S. __, __, 137 S. Ct.

App. 58
1549, 1554, 198 L. Ed. 2d 36 (2017). In that case, the
Montana Supreme Court found that “BNSF’s contacts
to Montana are not significant enough to render it at
home for purposes of general personal jurisdiction,
Plaintiffs’ claims do not arise from BNSF’s activity in
Montana for purposes of specific personal jurisdiction,
and BNSF did not consent to personal jurisdiction in
Montana.” Deleon, at ¶25. Just as BNSF was not subject to specific personal jurisdiction in Deleon, because
the Plaintiffs’ injuries occurred in Texas, here, Continental is not subject to specific personal jurisdiction
because Zachary’s alleged insufficient training and
tragic death both occurred in North Dakota. Subjecting Continental to specific personal jurisdiction in
Montana for its conduct in North Dakota would violate the Due Process Clause of the United States Constitution. Accordingly, the Court issues the following:
Order
Based on the applicable law and briefs, this Court orders that:
I. Defendant Continental Resources, Inc.’s. Motion to
Dismiss for lack of personal jurisdiction is GRANTED.
The Clerk of Court is directed.to file this Order and
provide copies to all parties.
DATED this 14th day of January, 2019.
/s/ Olivia Rieger
OLIVIA RIEGER
District Court Judge

App. 59
APPENDIX C
In the Supreme Court of the State of Montana
DA 16-0659, 2017 MT 235
____________
Zachary Scott BUCKLES, deceased, BY AND
THROUGH his personal representative Nicole R.
BUCKLES, and Nicole R. Buckles, personal representative, on behalf of the heirs of Zachary Scott Buckles, Petitioners and Appellants,
v.
CONTINENTAL RESOURCES, INC., an Oklahoma
Corporation, BH Flowtest, Inc., a Montana Corporation, Black Rock Testing, Inc., a Montana Corporation,
Janson Palmer, d/b/a Black Gold Testing, and John
Does 1-V, Respondents and Appellees.
____________
Submitted on Briefs: April 19, 2017
Decided: September 21, 2017
APPEAL FROM: District Court of the Seventh Judicial District, In and For the County of Richland, Cause
No. DV 15-14, Honorable Katherine M. Bidegaray,
Presiding Judge
COUNSEL OF RECORD:
For Appellants:
A. Clifford Edwards, Roger W. Frickle, Jared C.
B. Frickle, Edwards, Frickle & Culver, Billings,
Montana,

App. 60
Robert J. Savage, Savage Law Firm, Sidney,
Montana
For Appellees:
W. Scott Mitchell, Michael P. Manning, Holland
& Hart LLP, Billings, Montana (Attorneys for
Continental Resources, Inc.)
____________
Justice James Jeremiah Shea delivered the Opinion of
the Court.
¶ 1 Nicole R. Buckles (“Buckles”), as the personal representative of the estate of Zachary Scott Buckles
(“Zachary”), appeals the August 19, 2016 order of the
Seventh Judicial District Court, Richland County,
granting Continental Resources, Inc.’s (“Continental”)
motion to dismiss. We address the following issue:
Whether the District Court erred by dismissing
Buckles’ Complaint on grounds that Continental
Resources, Inc., is not subject to personal jurisdiction in Montana.
¶ 2 We reverse and remand to the District Court for
further proceedings.
PROCEDURAL AND FACTUAL BACKGROUND
¶ 3 On April 28, 2014, Zachary died of exposure to high
levels of hydrocarbon vapors while manually gauging
crude oil production tanks on Continental’s Columbus
Federal 2-16H well site near Alexander, North Dakota. The Columbus Federal 2-16H well site is a tank
battery consisting of twenty tanks that support five
production oil wells, including the Tallahassee 2-16H

App. 61
tank number three and Tallahassee 3-16H tank number one. These wells are located on the Bakken Reservoir. Continental oversees operation of the Columbus
Federal 2-16H well site from its corporate office in Sidney, Montana.
¶ 4 Around April 17, 2014, Zachary was dispatched by
his employer, Janson Palmer, doing business as Black
Gold Testing (“Black Gold”), to perform manual tank
gauging of the crude oil production tanks on Continental’s Columbus Federal 2-16H well site. Black Gold
was contracted to perform manual tank gauging activities for Continental pursuant to Continental’s Master
Service Contract with BH Flowtest, Inc., who subcontracted with Black Rock Testing, Inc., who, in turn,
subcontracted with Black Gold. BH Flowtest, Black
Rock, and Black Gold are all Montana business entities named as Co-Defendants with Continental in this
action.
¶ 5 Continental is an Oklahoma corporation authorized to do business in Montana since 1990. Continental has significant operations in Montana, North Dakota, South Dakota, and Oklahoma, with field offices
in Montana, North Dakota, South Dakota, Oklahoma,
and Texas. The Company owns an interest in 508 oil
and gas wells in Montana and operates 348 oil and gas
wells in Montana. Continental owns 119 motor vehicles that are licensed and registered in the State. The
Company also owns real property in multiple Montana counties, including in Richland County where
this case is venued. Continental maintains two Montana field offices in Baker and Sidney and three North
Dakota field offices in Killdeer, Rhame, and Tioga.

App. 62
¶ 6 On March 2, 2015, Buckles filed suit in the Montana Seventh Judicial District Court, Richland
County, alleging that Continental and the other Defendants are liable for Zachary’s death. The complaint
alleged that Continental and the other Defendants
had a legal duty under state and federal law to maintain a safe and secure oil well site, and that Continental and the other Defendants breached their duty by
allowing an inherently dangerous and unsafe well site
to be operated without adequate or appropriate air
monitoring equipment in place for the tank gauging
activities.
¶ 7 Buckles argued the Montana Safe Place to Work
Act and federal Occupational Safety and Health Act
required the Defendants to properly train and adequately equip Zachary, which they failed to do. Following jurisdictional discovery, Buckles cited an affidavit
by Continental’s Area Production Manager of Bakken
Operations and an Excel spreadsheet produced by
Black Gold containing flow data for Continental’s Columbus Federal 1-16H, Tallahassee 2-16H, and Tallahassee 3-16H well sites that denotes Continental’s
Sidney, Montana office was responsible for oversight
of the well site where Zachary died.
¶ 8 On April 17, 2015, Continental filed a motion to
dismiss for lack of personal jurisdiction. The parties
fully briefed and submitted the issue to the District
Court. On August 19, 2016, the District Court granted
Continental’s motion to dismiss. The District Court
did not hold an evidentiary hearing. The District
Court’s Order did not make any factual findings regarding personal jurisdiction, did not address Buckles’
allegations concerning personal jurisdiction made in

App. 63
her Complaint, and did not note whether it considered
those allegations in the light most favorable to Buckles. The Order contained only a paragraph setting
forth the procedural history of the case and concluded
that the motion was being granted “[f]or the reasons
argued by Continental.”
STANDARDS OF REVIEW
¶ 9 “We review de novo a district court’s decision on a
motion to dismiss for lack of personal jurisdiction, construing the complaint ‘in the light most favorable to
the plaintiff.’” Milky Whey, Inc. v. Dairy Partners,
LLC, 2015 MT 18, ¶ 7, 378 Mont. 75, 342 P.3d 13
(quoting Grizzly Sec. Armored Express, Inc. v. Armored Grp., LLC, 2011 MT 128, ¶ 12, 360 Mont. 517,
255 P.3d 143). Motions to dismiss are construed in a
light most favorable to the nonmoving party and
should not be granted unless, taking all well-pled allegations of fact as true, it appears beyond doubt that
the plaintiffs can prove no set of facts in support of
their claim which would entitle them to relief.
Threlkeld v. Colorado, 2000 MT 369, ¶ 7, 303 Mont.
432, 16 P.3d 359. We review a district court’s findings
of fact and conclusions of law regarding personal jurisdiction to determine whether the findings are clearly
erroneous and whether the conclusions are correct.
Nolan v. RiverStone Health Care, 2017 MT 63, ¶ 9, 387
Mont. 97, 391 P.3d 95.
DISCUSSION
¶ 10 Whether the District Court erred in holding that
Continental Resources, Inc., is not subject to personal
jurisdiction in Montana.

App. 64
¶ 11 This Court applies a two-part analysis to determine whether a Montana court may exercise personal
jurisdiction over a nonresident defendant. First, we
determine whether personal jurisdiction exists pursuant to M. R. Civ. P. 4(b)(1). Threlkeld, ¶ 9. Second, if
personal jurisdiction exists pursuant to M. R. Civ. P.
4(b)(1), we then determine whether exercising personal jurisdiction comports with traditional notions of
fair play and substantial justice embodied in the Due
Process Clause of the Fourteenth Amendment.
Threlkeld, ¶ 9. In that regard, the United States Supreme Court has recently addressed the constitutional
parameters of state courts exercising personal jurisdiction of nonresident defendants. See Bristol-Myers
Squibb Co. v. Superior Court, –– U.S. ––, 137 S. Ct.
1773 (2017); BNSF Ry. v. Tyrrell, –– U.S. ––, 137 S.
Ct. 1549 (2017); see also Daimler AG v. Bauman, 571
U.S. ––, 134 S. Ct. 746 (2014); Goodyear Dunlop Tires
Operations, S. A. v. Brown, 564 U.S. 915, 918, 131 S.
Ct. 2846 (2011). “[A] state court may exercise personal
jurisdiction over an out-of-state defendant who has
certain minimum contacts with [the State] such that
the maintenance of the suit does not offend traditional
notions of fair play and substantial justice.” Tyrrell, –
– U.S. ––, 137 S. Ct. at 1558 (citing International Shoe
Co. v. Washington, 326 U.S. 310, 316, 66 S. Ct. 154,
158 (1945)) (internal quotation marks omitted).
¶ 12 Personal jurisdiction can be either general or specific. Buckles argues that both are present in this case.
We address each in turn.
A. General Personal Jurisdiction
¶ 13 In Tyrrell, the U.S. Supreme Court reviewed this
Court’s exercise of general personal jurisdiction over

App. 65
BNSF Railway Company (“BNSF”) in a Federal Employers’ Liability Act suit brought in Montana by two
non-resident plaintiffs that sustained injuries outside
the State. In light of the peculiar statutory nuances of
the FELA, we held that general jurisdiction existed.
The U.S. Supreme Court reversed. The Court stated
that “the Fourteenth Amendment’s Due Process Clause
does not permit a State to hale an out-of-state corporation before its courts when the corporation is not ‘at
home’ in the State and the episode-in-suit occurred
elsewhere.” Tyrrell, –– U.S. ––, 137 S. Ct. at 1554 (citing Daimler, 571 U.S. at ––, 134 S. Ct. at 753-54) (emphasis in the original). The Court concluded:
BNSF [is not] so heavily engaged in activity in
Montana “as to render [it] essentially at home”
in that State. See Daimler, 571 U.S., at ––, 134
S. Ct. 746, 761 (internal quotation marks omitted). As earlier noted, BNSF has over 2,000
miles of railroad track and more than 2,000 employees in Montana. But, as we observed in
Daimler, “the general jurisdiction inquiry does
not focus solely on the magnitude of the defendant’s in-state contacts.” Id., at ––, n. 20, 134 S.
Ct. 746, 762 n. 20 (internal quotation marks and
alterations omitted). Rather, the inquiry “calls
for an appraisal of a corporation’s activities in
their entirety”; “[a] corporation that operates in
many places can scarcely be deemed at home in
all of them.” Ibid. In short, the business BNSF
does in Montana is sufficient to subject the railroad to specific personal jurisdiction in that
State on claims related to the business it does in
Montana. But in-state business, we clarified in

App. 66
Daimler and Goodyear, does not suffice to permit the assertion of general jurisdiction over
claims like [Plaintiffs’] that are unrelated to any
activity occurring in Montana.
Tyrrell, –– U.S. ––, 137 S. Ct. at 1559.
¶ 14 As noted above, Continental is incorporated in
Oklahoma and maintains its principal place of business in Oklahoma. Although it does substantial business in Montana and maintains substantial contacts
with Montana, it cannot be said to be “at home” in
Montana for purposes of establishing general personal
jurisdiction within the parameters established in Tyrrell. Thus, Continental is not subject to general personal jurisdiction in Montana.
B. Specific Personal Jurisdiction
¶ 15 Absent general jurisdiction, a Montana court may
assert specific personal jurisdiction over a nonresident
defendant when the plaintiff’s cause of action arises
from the specific circumstances set forth in Montana’s
long-arm statute, M. R. Civ. P. 4(b)(1). Threlkeld, ¶ 10.
M. R. Civ. P. 4(b)(1), states, in pertinent part:
Additionally, any person is subject to the jurisdiction of Montana courts as to any claim for relief arising from the doing personally, or
through an employee or agent, of any of the following acts:
(A) the transaction of any business
within Montana;
(B) the commission of any act resulting in
accrual within Montana of a tort action;

App. 67
(C) the ownership, use, or possession of
any property, or of any interest, therein
situated within Montana....
Specific jurisdiction depends on the “relationship
among the defendant, the forum, and the litigation,”
and on whether the defendant’s “suit-related conduct”
created a substantial connection with the forum state.
Tackett v. Duncan, 2014 MT 253, ¶ 19, 376 Mont. 348,
334 P.3d 920 (internal citations omitted). The defendant’s relationship with the forum and the litigation
“must arise out of contact that the ‘defendant himself’
created with the forum.” Tackett, ¶ 32 (emphasis in
original). “While ‘a defendant’s contacts with the forum State may be intertwined with his transactions
or interactions with the plaintiff or other parties[,]…a
defendant’s relationship with a plaintiff or third party,
standing alone, is an insufficient basis for jurisdiction.’” Tackett, ¶ 33 (quoting Walden v. Fiore, –– U.S.
––, 134 S. Ct. 1115, 1123 (2014)).
¶ 16 We have adopted the following factors to determine whether a defendant is subject to specific personal jurisdiction in Montana:
(1) The nonresident defendant must do some act
or consummate some transaction with the forum or perform some act by which he purposefully avails himself of the privilege of conducting activities in the forum, thereby invoking its
laws. (2) The claim must be one which arises out
of or results from the defendant’s forum-related
activities. (3) Exercise of jurisdiction must be
reasonable.

App. 68
Simmons v. State, 206 Mont. 264, 276, 670 P.2d 1372,
1378 (1983) (quoting Data Disc, Inc. v. Systems Tech.
Assoc., Inc., 557 F.2d 1280, 1287 (9th Cir. 1977)). If a
court concludes, as a matter of statutory construction,
that the nonresident defendant “did not engage in any
of the several activities enumerated in our long-arm
statute, the analysis ends and the court must decline
jurisdiction. However, if the non-resident has done
something which potentially confers jurisdiction, we
will advance to the due process component which is
ultimately determinative of the jurisdictional question.” B.T. Metal Works v. United Die & Mfg. Co., 2004
MT 286, ¶ 16, 323 Mont. 308, 100 P.3d 127 (citing Simmons, 206 Mont. at 272, 670 P.2d at 1376).
¶ 17 Our standard for establishing specific personal
jurisdiction comports with the U.S. Supreme Court’s
due process analysis on this issue:
In order for a state court to exercise specific jurisdiction, the suit must arise out of or relate to
the defendant’s contacts with the forum. In
other words, there must be an affiliation between the forum and the underlying controversy, principally, an activity or an occurrence
that takes place in the forum State and is therefore subject to the State’s regulation.
Bristol-Myers Squibb, –– U.S. ––, 137 S. Ct. at 1780
(citations and internal quotation marks omitted; emphasis in original).
¶ 18 Relevant to the issue of specific personal jurisdiction, Buckles’ Complaint alleges the following:
(1) That Continental and the Montana Co-Defendants breached their duty to “maintain a

App. 69
safe oil well site and secure work area on the oil
well site pursuant to contract and in fact.”
(2) That “Defendants, and each of them,…allow[ed] an inherently dangerous and unsafe
well site to be operated which did not have adequate or appropriate air monitoring equipment
in place for the tank gauging activities being
performed by Zachary and by failing to protect
Zachary from overexposure to hydrocarbon vapors all of which was a substantial contributing
factor to Zachary’s fatal injuries and damages....”
(3) “[T]hat at all times herein mentioned all Defendants…(i) jointly perpetrated the acts described herein with their Co-Defendants, (ii)
were the successors in interest to, or agents,
principals, partners, joint venturers, or co-conspirators of their Co-Defendants in doing the
things herein alleged and were acting within
the scope and authority or in furtherance of a
common scheme or design with the knowledge,
permission, consent or ratification of their CoDefendants in doing the things herein alleged
and therefore are liable, jointly and severally,
for all damages and other relief or remedies
sought by Plaintiffs in this action.”
¶ 19 Continental acknowledges that “Continental’s
Sidney office is assigned oversight of the North Dakota
wells at issue.” Continental contends, however, that
“oversight does not include responsibility for directing
or controlling contractors’ employees’ tank gauging activities and nothing…suggests that Continental took
some action or made some omission in Montana to give

App. 70
rise to the Estate’s claims.” Whether Continental’s
Montana office directed or controlled Zachary’s activities, however, is not the end of the analysis.
¶ 20 The dispositive question, as it pertains to specific
personal jurisdiction over Continental, is whether a
relationship exists “among the defendant [Continental], the forum, and the litigation,” Tackett, ¶ 19 (emphasis added), not just with Continental’s contacts
with Montana in general. Following the U.S. Supreme
Court’s direction, we have previously held: “[A] defendant’s relationship with a plaintiff or third party,
standing alone, is an insufficient basis for jurisdiction.” Tackett, ¶ 33 (quoting Walden, –– U.S. ––, 134
S. Ct. at 1123). “In order for a state court to exercise
specific jurisdiction, the suit must arise out of or relate
to the defendant’s contacts with the forum.” BristolMyers Squibb, –– U.S. ––, 137 S. Ct. at 1780 (internal
quotation omitted; emphasis in original).
¶ 21 In this case, Continental’s contacts with Montana, as alleged in Buckles’ Complaint, relate to the
controversy at issue. Continental’s argument regarding specific personal jurisdiction focuses on whether or
not it specifically directed or controlled Zachary’s tank
gauging activities on the day of his death. The problem
with this argument is that whether or not Continental
specifically directed or controlled Zachary’s tank gauging activities is not the principal basis for Buckles’
Complaint as it pertains to Continental’s liability for
Zachary’s death.1 Buckles’ Complaint alleges that the
Buckles does make one allegation at ¶ 15 of the Complaint that
“the Defendants[ ]…directed and required Zachary, who did not
have adequate and appropriate air monitoring equipment or
1

App. 71
incident that led to Zachary’s death occurred at a well
site, the operation of which was overseen by Continental’s Sidney, Montana office. Regarding that well site,
Buckles’ Complaint alleges, in pertinent part, that
Continental—along with the Montana Co-Defendants—breached their duty to “maintain a safe oil well
site and secure work area,” and “allow[ed] an inherently dangerous and unsafe well site to be operated.”
¶ 22 Continental argues its contractors and subcontractors directed the tank gauging activities of Buckles and that it effectively contracted away liability for
the tank gauging services. As to the relative liability
of the respective Co-Defendants, however, Buckles’
Complaint alleges:
Defendants…(i) jointly perpetrated the acts described herein with their Co-Defendants, (ii)
were the successors in interest to, or agents,
principals, partners, joint venturers, or co-conspirators of their Co-Defendants in doing the
things herein alleged and were acting within
the scope and authority or in furtherance of a
common scheme or design with the knowledge,
permission, consent or ratification of their CoDefendants in doing the things herein-alleged
and therefore are liable, jointly and severally,
for all damages and other relief or remedies
sought by Plaintiffs in this action.
¶ 23 Ordinarily, the general contractor and owner of a
construction project are not liable for injuries to a subcontractor’s employees. Cunnington v. Gaub, 2007 MT
training and who was exposed to hydrocarbon vapors, to manually gauge crude oil production tanks on Continental’s Federal
2-16 well site.”

App. 72
12, ¶ 13, 335 Mont. 296, 153 P.3d 1. However, “an
owner may be held liable for the injuries sustained by
the employee of a subcontractor if the owner exercised
control in such a way as to create the dangerous condition…or if the owner knew or should have known of
the dangerous condition and retained sufficient authority to direct how the work was performed[.]” Cunnington, ¶ 23. Whether Continental is ultimately liable for Zachary’s death through contract or agency visà-vis its Montana Co-Defendants goes to the merits of
Buckles’ theory of liability. “[A] court should determine jurisdiction only on the necessary jurisdictional
facts and not on the merits of the case.” Seal v. Hart,
2002 MT 149, ¶ 23, 310 Mont. 307, 50 P.3d 522. “To
dismiss a claim for lack of personal jurisdiction on the
grounds that one party did not owe the opposition a
duty of care would compel an analysis of the claim’s
merits prior to the threshold jurisdictional inquiry.”
Seal, ¶ 25.
¶ 24 As it pertains to Continental’s, and this particular claim’s, relationship to Montana, Buckles’ Complaint can be boiled down to two points: (1) Continental, acting jointly with its Montana Co-Defendants,
caused Zachary’s death; and (2) Continental “allow[ed]
an inherently dangerous and unsafe well site to be operated,” which resulted in Zachary’s death. Regarding
operation of the well site at issue, Continental’s relationship to Montana is not merely incidental. Operation of this well site was overseen by Continental’s corporate office in Sidney, Montana.
¶ 25 Taking all of Buckles’ well-pled allegations as
true, it does not appear beyond doubt that she has

App. 73
failed to establish the Montana Court’s specific personal jurisdiction over Continental. Thus, considering
only the allegations pled in the Complaint, the District
Court erred by granting Continental’s motion to dismiss. The District Court allowed the parties to engage
in limited discovery to further develop the jurisdictional facts. Buckles presented evidence that she argues demonstrates that oversight of the well-site at issue was conducted by Continental’s Sidney office, and
that Continental contracted with Montana entities to
service the wells. Continental presented evidence that
it claims demonstrates that oversight of the well-site
“does not include directing or controlling the tank contractors’ employees’ gauging activities.”
¶ 26 The District Court dismissed Buckles’ Complaint
against Continental without any factual findings or
substantive analysis. The District Court did file a response to a petition for writ of supervisory control that
Buckles filed after the District Court entered its Order
of dismissal. Justice McKinnon would take judicial notice of the District Court’s response to Buckles’ petition. Dissent, ¶ 30. However, we dismissed Buckles’
petition without ever considering the merits of either
the petition itself, or the responses to the petition that
were filed by Continental and the District Court. We
did so specifically because we concluded that “Buckles
has an adequate remedy of appeal if Buckles chooses
to request certification [of the District Court’s Order
granting Continental’s motion to dismiss] pursuant to
Mont. R. Civ. P. 54(b).” Buckles followed our direction,
sought and obtained Rule 54(b) certification, and then
appealed the District Court’s Order dismissing Continental from the action. That Order is what is now before us on appeal. Assuming it would be appropriate

App. 74
to take judicial notice of a pleading that is neither part
of the record, nor was ever considered in the writ action, it creates a procedural entanglement, to say the
least, to dismiss Buckles’ petition on the basis that she
has an adequate remedy of appeal but then, having
sought that remedy per our direction, to consider the
District Court’s response to Buckles’ dismissed petition in augmentation of the Order that is the actual
subject of the appeal.
¶ 27 Even if it was appropriate to consider the District
Court’s response to Buckles’ petition, however, our
disposition of this appeal would remain unchanged. As
previously noted, Continental’s argument regarding
specific personal jurisdiction focuses on whether or not
it specifically directed or controlled Zachary’s tank
gauging activities on the day of his death. However,
there are disputed issues of fact as to whether Continental’s oversight of the wells at issue—which it
acknowledges was conducted from its Sidney office—
contributed to the operation of “an inherently dangerous and unsafe well site” as alleged by Buckles. Likewise, there are disputed issues of fact as to whether
Continental may be held liable vis-à-vis it contracts
with its Montana Co-Defendants. Cunnington, ¶ 23.
¶ 28 We have previously held that “[w]here material
jurisdictional facts are disputed, the appropriate procedure is a preliminary hearing by the District Court
pursuant to Rule 12(d), M. R. Civ. P.” See Minuteman
Aviation v. Swearingen, 237 Mont. 207, 212, 772 P.2d
305, 308-09 (1989) (citing Data Disc, 557 F.2d at
1285). The current Montana Rules of Civil Procedure
provide a presumption in favor of a hearing:

App. 75
Hearing before Trial. If a party so moves, any
defense listed in Rule 12(b)(1)-(7) [12(b)(2) is the
defense of lack of personal jurisdiction]—
whether made in a pleading or by motion—and
a motion under Rule 12(c) must be heard and
decided before trial unless the court orders a deferral until trial.
M. R. Civ. P. 12(i). Although motions to dismiss have
the effect of admitting all well-pled allegations in the
complaint, the jurisdictional allegations set forth in
the Complaint in this case and developed through additional discovery raise disputed issues of fact, which
will determine whether Continental is subject to the
Court’s jurisdiction. We thus conclude that a preliminary evidentiary hearing should be held on the question of whether the District Court has personal jurisdiction over Continental. “Where the district court
takes evidence at a preliminary hearing plaintiff must
establish the jurisdictional facts by a preponderance
of the evidence.” Minuteman Aviation, 237 Mont. at
212, 772 P.2d at 309 (citing Data Disc, 557 F.2d at
1285). If necessary, M. R. Civ. P. 12(i) also allows a
court to defer ruling on a motion to dismiss until trial.2

The Ninth Circuit Court of Appeals discussed jurisdictional
fact-finding in detail in Data Disc:
2

Where the jurisdictional facts are intertwined with the
merits, a decision on the jurisdictional issues is dependent on a decision of the merits. In such a case, the district
court could determine its jurisdiction in a plenary pretrial proceeding. However, it is preferable that this determination be made at trial, where a plaintiff may present his case in a coherent, orderly fashion and without

App. 76
CONCLUSION
¶ 29 We reverse and remand to the District Court with
instructions to conduct an evidentiary hearing for the
purpose of determining whether Continental is subject to specific personal jurisdiction in Montana.
/s/ James Jeremiah Shea
We concur:
/s/ MIKE McGRATH, C.J.
/s/ MICHAEL E WHEAT, J.
/s/ BETH BAKER, J.
/s/ DIRK M. SANDEFUR, J.
/s/ JIM RICE, J.
***
Justice Laurie McKinnon, dissenting.
¶ 30 The Court states that Buckles’ Complaint was
dismissed by the District Court “without any substantive analysis,” Opinion, ¶ 24, and in a “single paragraph setting forth the procedural history of the case
the risk of prejudicing his case on the merits. Accordingly, where the jurisdictional facts are enmeshed with
the merits, the district court may decide that the plaintiff
should not be required in a [Fed. R. Civ. P.] 12(d) preliminary proceeding to meet the higher burden of proof
which is associated with the presentation of evidence at
a hearing, but rather should be required only to establish
a prima facie showing of jurisdictional facts with affidavits and perhaps discovery materials. Of course, at any
time when the plaintiff avoids a preliminary motion to
dismiss by making a prima facie showing of jurisdictional
facts, he must still prove the jurisdictional facts at trial
by a preponderance of the evidence.
Data Disc, Inc., 557 F.2d at 1285 n.2.

App. 77
…concluded that the motion was being granted ‘[f]or
the reasons argued by Continental.’” Opinion, ¶ 8. The
Court does not consider the District Court’s Response
to a writ of supervisory control filed by Buckles in
which the singular issue raised was the court’s alleged
error in granting Continental’s motion to dismiss for
lack of personal jurisdiction. We ordered the District
Court to respond; the court did—in a seventeen-page
Response that set forth its reasons for concluding
there was neither general personal jurisdiction nor
specific personal jurisdiction over Continental. Following our review of the District Court’s Response, we
concluded that certification pursuant to M. R. Civ. P.
54(b) would give this Court the ability to conduct an
interlocutory review pursuant to M. R. App. P. 6(6).
We dismissed Buckles’ petition on October 18, 2016,
and, as a result, the District Court granted Buckles’
request for certification on October 26, 2016. Buckles
did not request a hearing in the District Court to develop jurisdictional facts following our dismissal of the
petition; Buckles simply asked that the issue of personal jurisdiction be certified to this Court for resolution as an interlocutory appeal. The District Court’s
rationale, as articulated in its Response to the petition
for writ of supervisory control, should be considered in
the instant appeal. The rationale supporting the District Court’s decision to grant Continental’s Motion to
Dismiss for lack of personal jurisdiction, as set forth
in its Response to Buckles’ petition for a writ, is the
matter being reviewed on appeal. The Response was
thorough, deliberate, and addressed both general and
specific personal jurisdiction. Although the court’s Response addresses a matter squarely on appeal, and
could have been made part of the record simply by

App. 78
placing it in the court file, I would, to the extent necessary, take judicial notice of the District Court’s Response pursuant to In re Marriage of Carter-Scanlon,
2014 MT 97, ¶ 17, 374 Mont. 434, 322 P.3d 1033.
¶ 31 Significantly, after Continental filed its motion to
dismiss, Buckles received a 90-day extension to conduct jurisdictional discovery. The only “suit-related”
documents relevant to specific jurisdiction that were
produced were (1) a spreadsheet filled out by a different defendant, and (2) the Master Service Contract between Continental and BH Flowtest, the entity employing Buckles. The Master Service Contract expressly stated that BH Flowtest was neither an employee nor agent of Continental. Lastly, Continental’s
Area Production Manager, Russell J. Atkins (“Atkins”), also submitted an affidavit representing that
Continental does not direct or control the tank gauging contractors; rather, “it is the contractors who direct the tank gauging operations of their respective
employees, including the recording of well- and datespecific data on the form spreadsheet.” Atkins testified
that the employees and operators of the contractors
are the ones measuring and recording the data on the
spreadsheet. Buckles has failed to produce any evidence controverting Atkins’ description of the subcontractor relationships regarding oil production at the
Columbus Federal 2-16H where the injury occurred.
¶ 32 The District Court understood these relationships and stated:
Continental operates the Columbus Federal 216H well site, located near Alexander, North
Dakota (“Continental’s North Dakota well

App. 79
site”). Continental contracted with BH FlowTest, Inc., a Montana corporation with its principal place of business in Sidney, Montana,
which contracted with Black Rock Testing, Inc.
(“Black Rock”), a Montana corporation with its
principal place of business in Glasgow, Montana, which contracted with Janson Palmer,
d/b/a Black Gold Testing, Inc. (“Black Gold”), a
Montana business entity with its principal place
of business in Glasgow, Montana, to perform
manual test gauging and production monitoring
on Continental’s North Dakota Well site. Black
Gold employed Zachery Scott Buckles (“Buckles”), a Glasgow, Montana, resident or subcontracted with Buckles d/b/a Dozer Well Testing.
(Footnotes omitted). The District Court also understood the injury occurred in North Dakota and explained that “[o]n April 17, 2014, Black Gold dispatched Buckles from his Glasgow, Montana, residence to gauge crude oil production tanks on Continental’s North Dakota well site” where Buckles ultimately died. The District Court observed that Continental is an Oklahoma corporation with its principal
place of business in Oklahoma City, Oklahoma, and
corporate offices in Sidney, Montana.
¶ 33 After concluding that pursuant to Daimler there
was no general jurisdiction over Continental, the District Court analyzed whether there was specific jurisdiction over Continental pursuant to each of the subsections of M. R. Civ. P. 4(b)(1)(A)-(C). The court considered relevant jurisprudence: including Columbia
Falls Aluminum Co. v. Hindin/Owne/Engelke, Inc.,
224 Mont. 202, 728 P.2d 1342 (1986); Simmons Oil

App. 80
Corp. v. Holly Corp., 244 Mont. 75, 796 P.2d 189
(1990); Tackett v. Duncan, 2014 MT 253, 376 Mont.
348, 334 P.3d 920; Cimmaron Corp. v. Smith, 2003 MT
73, 315 Mont. 1, 67 P.3d 258; and Larson v. Ford Motor
Co., No. DV-15-245B (Mont. 18th Jud. Dist. Ct. 2016).
The court held that “[t]he claim for relief in this case
involves Continental’s agreements with BH FlowTest,
a Montana entity, to perform work in North Dakota
and an accident on Continental’s North Dakota well
site.” Pursuant to M. R. Civ. P. 4(b)(1)(A)—whether
the claims arise from “the transaction of any business
within Montana,”—the court concluded that the “Continental-BH FlowTest Montana connection is not
enough to confer specific jurisdiction without offending due process constraints under Cimmaron.”
¶ 34 Next, the District Court considered M. R. Civ. P.
4(b)(1)(B)—whether the claims arise from “the commission of any act resulting in accrual within Montana
of a tort action….” The District Court observed that
although Buckles alleged in the Complaint that Continental’s Sidney field office directed Buckles’ activities, Buckles acknowledges that “Continental’s connection to Buckles involved contracts from Continental to BHFlowTest to Black Rock to Black Gold to
Buckles” and that the record establishes that the injury causing events did not occur in Montana. Citing
Tackett and Cimmaron, the District Court concluded
that the series of contracts employing subcontractors
does not support specific jurisdiction over Continental.
¶ 35 Finally, the District Court considered M. R. Civ.
P. 4(b)(1)(C)—whether the claims arise from “the ownership, use, or possession of any property, or of any interest therein, situated within Montana.” The District

App. 81
Court explained that the claims arise from an accident
that occurred in North Dakota and the fact that Continental owns wells in Montana does not “confer[] specific jurisdiction for a claim arising out of an accident
occurring on a North Dakota well site.”
¶ 36 The Court distorts our decision in Minuteman
Aviation, which held that “[w]here material jurisdictional facts are disputed, the appropriate procedure is
a preliminary hearing by the District Court pursuant
to Rule 12(d), M.R.Civ.P.” 237 Mont. at 212, 772 P.2d
at 308 (citing Data Disc, 557 F.2d at 1285) (emphasis
added). Here, there were no disputed facts, but rather
an absence of any facts establishing suit-related conduct on the part of Continental, other than a train of
contracts with subcontractors and an injury occurring
in North Dakota. The District Court understood the
requirements for exercising specific jurisdiction based
on alleged suit-related conduct by Continental and
correctly ruled that specific jurisdiction was lacking.
¶ 37 M. R. Civ. P. 4(b)(1) requires that Buckles’ claim
for relief must arise out of an act done “personally, or
through an employee or agent” of Continental. The
Master Services Agreement establishes that BH Flowtest was neither an employee nor agent of Continental. Accordingly, for Continental to be subject to specific jurisdiction of a Montana court, Buckles’ claim
must have arisen out of an act done “personally” by
Continental, either through its transaction of business
in Montana, M. R. Civ. P. 4(b)(1)(A); through the tort
action having accrued in Montana, M. R. Civ. P.
4(b)(1)(B); or as a result of the claim arising out of Continental’s ownership of Montana property, M. R. Civ.
P. 4(b)(1)(C). The United States Supreme Court has

App. 82
“consistently rejected attempts to satisfy the defendant-focused ‘minimum contacts’ inquiry by demonstrating contacts between the plaintiff (or third parties) and the forum State.” Walden, –– U.S. ––, 134 S.
Ct. at 1122. The “unilateral activity of another party
or a third person is not an appropriate consideration
when determining whether a defendant has sufficient
contacts with a forum State to justify an assertion of
jurisdiction.” Helicopteros Nacionales de Colombia, S.
A. v. Hall, 466 U.S. 408, 417, 104 S. Ct. 1868, 1873
(1984). Thus, however significant the contacts to Montana of Buckles or other third party subcontractors
may be, those contacts cannot be decisive in determining whether the exercise of jurisdiction over the defendant is proper. Walden, –– U.S. ––, 134 S. Ct. at
1122.
¶ 38 Importantly, Buckles does not request an opportunity to conduct further discovery or have a hearing;
rather, Buckles argues that the law applied to the undisputed facts establishes specific personal jurisdiction over Continental and that the court erred in finding otherwise. We stated in Minuteman Aviation that
“where material jurisdictional facts are disputed, the
appropriate procedure is a preliminary hearing.” 237
Mont. at 212, 772 P.2d at 309. Further, the court, as
the District Court did here, “has discretion to permit
discovery to resolve factual issues.” Minuteman Aviation, 237 Mont. at 212, 772 P.2d at 309 (citing Data
Disc, 557 F.2d at 1285). Regardless of how the jurisdictional facts are produced, the plaintiff must “establish the jurisdictional facts by a preponderance of the
evidence.” Minuteman Aviation, 237 Mont. at 212, 772
P.2d at 309 (citing Data Disc, 557 F.2d at 1285). The

App. 83
Court suggests that the instant facts are so intertwined with the merits of the underlying controversy
that a decision on the jurisdictional issue may have to
wait until a decision can be made on the merits. Opinion, ¶ 28, n.2. However, Minuteman Aviation did not
authorize an approach that requires a defendant to defend a proceeding in a foreign state and wait until a
decision is made on the merits before its motion to dismiss for lack of jurisdiction is granted. Further, in my
opinion, it is inappropriate for this Court to set forth a
new rule such as this in a footnote, as it has done.
¶ 39 Minuteman Aviation held that “[i]n a situation
where the jurisdictional facts are intertwined with
facts involving the merits of the case, the district court
may determine its jurisdiction in a plenary pretrial
proceeding.” 237 Mont. at 212, 772 P.2d at 309 (citation omitted) (emphasis added). Here, Buckles has
failed to make even a prima facie showing of jurisdictional facts which, based upon a preponderance of the
evidence, is sufficient to confer jurisdiction over Continental. This is so even after an extension of discovery
in order to do so. The Court’s conclusion ipso facto that
facts are in dispute does not make it so. The uncontroverted evidence of the Master Service Agreement and
Atkins’ affidavit establish that the subcontractors directed the tank gauging operations of their respective
employees. The instant facts are easily distinguishable from those present in Minuteman Aviation, which
involved the repair of an aircraft engine in one state;
installation of the engine in another state; and the accident occurring in Montana. 237 Mont. at 208, 772
P.2d at 306. The instant facts are also easily distinguished from Data Disc, which involved an alleged

App. 84
breach of contract and questions of where the contracts were negotiated and executed. 557 F.2d at 128384.
¶ 40 Accordingly, even without consideration of the
District Court’s Response, Buckles has not met her
burden of proof to demonstrate Continental’s suit-related conduct arose from its transaction of business in
Montana. To the extent we are unhappy with the absence of any underlying jurisdictional facts and seek
to facilitate a second fishing expedition to develop
those facts, I dissent.

App. 85
APPENDIX D
MONTANA SEVENTH JUDICIAL DISTRICT
COURT, RICHLAND COUNTY
____________
Filed August 22, 2016, Cause No. DV-15-14
ORDER GRANTING DEFENDANT CONTINENTAL
RESOURCES, INC,’S MOTION TO DISMISS FOR
LACK OF PERSONAL JURISDICTION
____________
ZACHARY SCOTT BUCKLES, deceased, by and
through his personal representative, NICOLE R.
BUCKLES, and NICOLE R. BUCKLES, personal representative, on behalf of the heirs of ZACHARY
SCOTT BUCKLES,
Plaintiffs,
vs.
CONTINENTAL RESOURCES, INC., an Oklahoma
corporation, BH FLOWTEST, INC., a Montana Corporation, BLACK ROCK TESTING, INC. a Montana
Corporation, JANSON PALMER, d/b/a BLACK GOLD
TESTING, and JOHN DOES I-V,
Defendants.
____________
On April 17, 2015, Defendant Continental Resources,
Inc. (“Continental”) filed a Motion to Dismiss for Lack
of Personal Jurisdiction and Brief in Support. On
April 28, 2015, the Plaintiffs filed an Unopposed Motion for Extension of Time to File Response Brief and
for Leave to Conduct Jurisdictional Discovery Prior to

App. 86
the Filing of Plaintiffs’ Response Brief. On April 28,
2015, this Court issued an Order granting the Plaintiffs a 90-day extension. On July 24, 2015, Plaintiffs
filed a Brief in Opposition to Defendant Continental
Resources, Inc.’s Motion to Dismiss for Lack of Personal Jurisdiction. On August 3, 2015, Continental
filed an Unopposed Motion for Extension of Time to
File Reply Brief. On August 3, 2015, this Court issued
an Order granting Continental until August 17, 2015,
to file its reply brief. On August 17, 2015, Continental
filed its Reply Brief in Support of its Motion to Dismiss
for Lack of Personal Jurisdiction. This matter is fully
briefed.
For the reasons argued by Continental,
IT IS HEREBY ORDERED that Defendant Continental Resources, Inc.’s Motion to Dismiss is GRANTED.
Dated this 19th day of August, 2016.
/s/ Katherine M. Bidegaray
Hon. Katherine M. Bidegaray
DISTRICT COURT JUDGE

App. 87
APPENDIX E
MONTANA SEVENTH JUDICIAL DISTRICT
COURT, RICHLAND COUNTY
____________
Filed March 2, 2015, Cause No. DV-15-14
Judge Katherine M. Bidegaray
COMPLAINT AND DEMAND FOR JURY TRIAL
____________
ZACHARY SCOTT BUCKLES, deceased, by and
through his personal representative, NICOLE R.
BUCKLES, and NICOLE R. BUCKLES, personal representative, on behalf of the heirs of ZACHARY
SCOTT BUCKLES,
Plaintiffs,
vs.
CONTINENTAL RESOURCES, INC., an Oklahoma
corporation, BH FLOWTEST, INC., a Montana Corporation, BLACK ROCK TESTING, INC. a Montana
Corporation, JANSON PALMER, d/b/a BLACK GOLD
TESTING, and JOHN DOES I-V,
Defendants.
____________
COME NOW the Plaintiffs, by and through their attorneys of record, Edwards, Prickle & Culver and the
Savage Law Firm, and for their complaint against the
Defendants, Continental Resources, Inc., BH FlowTest Inc., Black Rock Testing, Inc., and Janson
Palmer, d/b/a Black Gold Testing, complain and allege
as follows:

App. 88
1. Zachary Scott Buckles, deceased, was the natural
son of Nicole R. Buckles and at all times relevant
hereto a resident of Glasgow, Valley County, Montana.
2. Nicole R. Buckles, was at all times relevant hereto,
a resident of the State of Montana. Nicole was appointed Personal Representative in intestacy of the estate of Zachary Scott Buckles by Order dated June 19,
2014, issued by the Montana Seventeenth Judicial
District Court, Valley County, Probate No. DP -14-15.
3. The Defendant Continental Resources, Inc., was at
all times relevant hereto, a corporation organized and
existing under the laws of the State of Oklahoma with
its principal place of business in Oklahoma City, Oklahoma. In addition, Continental Resources, Inc. has
corporate offices in Sidney, Montana.
4. The Defendant BH FlowTest, Inc., was at all times
relevant hereto, a corporation organized and existing
under the laws of the State of Montana with its principal place of business in Sidney, Montana.
5. The Defendant Black Rock Testing, Inc., (hereinafter “Black Rock Testing”) was at all times relevant
hereto, a corporation organized and existing under the
laws of the State of Montana with its principal place
of business in Glasgow, Montana.
6. The Defendant Janson Palmer, d/b/a Black Gold
Testing, (hereinafter “Black Gold Testing”) a Montana
business entity with its principle place of business in
Glasgow, Montana, is a resident of Glasgow, Valley
County, Montana.

App. 89
7. The true names and capacities of DOES I-V are unknown, to the Plaintiffs, who therefore sue said Defendants under these fictitious names. On information
and belief, Defendant DOES I-V, inclusive, (i) directly
participated, in or assisted in the performance of the
wrongful acts and omissions described herein, although the full extent of their involvement is unknown
at this time, OR (ii) conspired with the named parties
in this case to perform the wrongful acts and omissions described below, although the full extent of their
involvement is unknown at this time, OR (iii) acted as
principals or agents, actual or ostensible, of other
named parties in this case in performing the wrongful
acts and omissions described below, although the full
extent of their involvement is unknown at this time.
Plaintiffs thus believe that Defendant DOES I-V, inclusive, are liable for the damages and other relief
sought in this case as participants, co-conspirators,
principals or agents, or are otherwise necessary or indispensable parties to adjudication of the issues involved in this case. When the true names and capacities of DOES I-V, inclusive, have been ascertained, appropriate amendments of this Claim will be filed.
8. Plaintiffs are further informed, believe and thereon
allege that at all times herein mentioned all Defendants, including DOES I-V, inclusive, (i) jointly perpetrated the acts described herein with their Co-Defendants, (ii) were the successors in interest to, or agents,
principals, partners, joint venturers, or co-conspirators of their Co-Defendants in doing the things herein
alleged and were acting within the scope and authority or in furtherance of a common scheme or design
with the knowledge, permission, consent or ratification of their Co-Defendants in doing the things herein

App. 90
alleged and therefore are liable, jointly and severally,
for all damages and other relief or remedies sought by
Plaintiffs in this action.
JURISDICTION AND VENUE
9. Jurisdiction is proper in Montana and venue is
proper in the Montana Seventh Judicial District because under § 25-2-122(1)(a), MCA, Defendant BH
FlowTest, Inc., resides in Richland County, Montana.
Moreover, Continental Resources, Inc. (hereinafter
“Continental”) is an out-of-state corporation which, as
in this case, avails itself of Montana employers and
their Montana employees in the furtherance of for
profit activities and Continental conducts commerce
in the State of Montana and has a corporate office in
Sidney, Richland County, Montana.1 Likewise, Defendants Black Rock Testing, Inc. and Black Gold
Testing are Montana business entities.
FACTS COMMON TO ALL COUNTS
10. On or about April 17, 2014, Zachary, who was employed by Black Gold Testing to manually gauge crude
oil production tanks, was dispatched from his residence in Glasgow, Montana to work on Continental’s
Columbus Federal 2-16H well site which is located
near Alexander, North Dakota. Continental’s Columbus Federal 2-16H is a tank battery consisting of 20
tanks supporting five producing oil wells to include
Tallahassee 2-16H and Tallahassee 3-16H.
11. Upon information and belief, Black Gold Testing
had been contracted by Black Rock Testing who had
C T Corporation System of Billings is Continental’s registered
agent in the State of Montana.
1

App. 91
been contracted by BH FlowTest who had been contracted by Continental Resources, Inc. to perform
manual tank gauging and production monitoring activities on Continental's Columbus Federal 2-16H well
site approximately nineteen (19) miles north of Alexander, McKenzie County, North Dakota, over which
the Defendants, and each of them, would supervise
and control the project.
12. Upon information and belief, the manual tank
gauging of the crude oil production tanks on Continental’s Columbus Federal 2-16H well site was supervised
by the Defendants, and each of them.
13. Oil drilling and its associated activities to include
manual tank gauging is an inherently dangerous activity and it was readily ascertainable to the Defendants, and each of them, that manual tank gauging of
crude oil production tanks would pose peculiar risks to
all involved, as well as, dangers special to and inherent in tank gauging of crude oil production tanks and
that adequate precautions were required against recognized hazards that were causing or likely to cause
death or serious physical harm to include overexposure to hydrocarbon vapors.
14. Upon information and belief, the Defendants, and
each of them, knew of the hazards associated with
manually gauging crude oil production tanks and of
the strict requirements for adequate and appropriate
air monitoring equipment, as well as training regarding overexposure to hydrocarbon vapors while manually gauging crude oil production tanks.

App. 92
15. In spite of the Defendants’, and each of their specific knowledge, in order to maximize output and production for a profit, intentionally, deliberately, and
maliciously and with callous disregard for the high
probability of injury to Zachary, directed and required
Zachary, who did not have adequate and appropriate
air monitoring equipment or training and who was exposed to hydrocarbon vapors, to manually gauge crude
oil production tanks on Continental’s Federal 2-16
well site.
16. During the early morning hours of April 28, 2014,
Zachary was manually gauging crude oil production
tanks on Continental’s Columbus Federal 2-16H well
site specifically, Tallahassee 2-16H tank number
three and Tallahassee 3-16H tank number one, when
he was overcome by exposure to hydrocarbon (petroleum) vapors which, although surviving for an appreciable amount of time, ultimately resulted in his
death.
COUNT ONE
Plaintiffs reallege and incorporate herein by reference
Paragraphs 1-16 above and further allege as follows:
17. Upon information and belief, Defendants, and each
of them, had a duty at the time of Zachary’s accident
and subsequent death to maintain a safe oil well site
and secure work area on the oil well site pursuant to
contract and in fact.
18. Defendants, and each of them, breached that duty
by allowing an inherently dangerous and unsafe well
site to be operated which did not have adequate or appropriate air monitoring equipment in place for the
tank gauging activities being performed by Zachary

App. 93
and by failing to protect Zachary from overexposure to
hydrocarbon vapors all of which was a substantial contributing factor to Zachary’s fatal injuries and damages as set forth above.
19. As a result of the wrongful acts and omissions of
Defendants as described in the preceding paragraphs,
Zachary was exposed to the inhalation of hydrocarbon
vapors all of which resulted in his death.
20. The wrongful acts and omission of Defendants, and
each of them, are of such character and of such aggravation so as to entitle Plaintiffs to all damages to
which they are entitled under the Montana Constitution and statutory law including, but not limited to,
punitive damages.
COUNT TWO
Plaintiffs reallege and incorporate herein by reference
Paragraphs 1-20 above and further allege as follows;
21. The heir(s) of Zachary, on their own behalf, have
been subjected, by the circumstances of the injuries
and death of Zachary, to serious and severe emotional
distress. The acts and/or omissions of the Defendants,
as described above, constitute the commission of the
tort of negligent infliction of emotional distress as that
cause of action is now recognized under Montana law.
The heir(s) of Zachary Scott Buckles have suffered and
continue to suffer serious and severe emotional distress including, but not limited to, shame, humiliation, degradation, embarrassment, anger, disappointment and worry, all of which have resulted in further
damages and injuries to the heir(s) of Zachary.

App. 94
22. As a result of the wrongful acts and/or omissions
of the Defendants, as stated above, the heirs of Zachary Scott Buckles have suffered and continue to suffer
severe emotional distress which was the reasonably
foreseeable consequence of said wrongful acts and/or
omissions for which Defendants are liable to the heirs
of Zachary Scott Buckles for all damages available under Montana law.
COUNT THREE
Plaintiffs reallege and incorporate herein by reference
Paragraphs 1-22 above and further allege as follows:
23. Plaintiffs, as a result of the wrongful acts and/or
omissions of the Defendants, as stated above, have
suffered and will continue to suffer loss of consortium
as that claim is defined under Montana law, and are
entitled to recover all damages available under Montana law from the Defendants.
WHEREFORE Plaintiffs pray judgment against the
Defendants, and each of them, for all damages to
which they are entitled to under Montana law in such
categories and in such amounts as will be furnished to
Defendants in accordance with applicable Montana
law and/or Rules of Civil Procedure. In addition, Plaintiffs are entitled to punitive or exemplary damages because of the character of Defendants’ wrongful acts
and/or omissions in such amounts as seems just and
proper to their trial jury under the circumstances presented at trial.
DEMAND FOR JURY TRIAL
Plaintiffs demand trial by jury of all of the issues in
this action.

App. 95
DATED this 26th day of February, 2015.
EDWARDS, FRICKLE &
CULVER and the SAVAGE
LAW FIRM
By /s/ Roger W. Frickle
A. Clifford Edwards
Roger W. Frickle
Jared C.B. Frickle
Attorneys for Plaintiffs

